<html>
<title> - FIGHTING DRUNK DRIVING: LESSONS LEARNED IN NEW MEXICO</title>
<body><pre>[Senate Hearing 112-111]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-111
 
                        FIGHTING DRUNK DRIVING: 
                     LESSONS LEARNED IN NEW MEXICO

=======================================================================

                             FIELD HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            AUGUST 10, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                  U.S. GOVERNMENT PRINTING OFFICE
68-538                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4e293e210e2d3b3d3a262b223e602d212360">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                Todd Bertoson, Republican Staff Director
            Jarrod Thompson Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 10, 2011..................................     1
Statement of Senator Udall.......................................     1

                               Witnesses

Ronald Medford, Deputy Administrator, NHTSA, U.S. Department of 
  Transportation.................................................     3
    Prepared statement...........................................     5
Michael R. Sandoval, Director, Traffic Safety Division, New 
  Mexico Department of Transportation (NMDOT)....................     7
    Prepared statement...........................................    10
Hon. Richard J. Berry, Mayor, City of Albuquerque................    14
    Prepared statement...........................................    17
Richard Williams, Chief of Police, Las Cruces Police Department..    19
    Prepared statement...........................................    21
Lora Lee Ortiz, Executive Director, MADD New Mexico..............    22
    Prepared statement...........................................    24
Cameron Crandall, M.D., Emergency Physician and Associate 
  Professor and Vice Chair for Research, Department of Emergency 
  Medicine, University of New Mexico.............................    26
    Letter, dated August 9, 2011 to Hon. Tom Udall, from Sandra 
      Schneider, MD, FACEP, President, American College of 
      Emergency Physicians.......................................    28
    Prepared statement...........................................    29
Susan Ferguson, Ph.D., Program Manager, Driver Alcohol Detection 
  System for Safety, Automotive Coalition for Traffic Safety.....    36
    Prepared statement...........................................    38
David A. Culver, Vice President, Government Affairs, Distilled 
  Spirits Council of the United States...........................    40
    Prepared statement...........................................    42

                                Appendix

Letter, dated August 17, 2011 to Hon. Tom Udall from J. Steven 
  Richards, House Manager, Alvarado Sober Living House...........    47
Professor Martina Kitzmueller, Research Professor of Law, 
  University of New Mexico School of Law, prepared statement.....    48
Richard Roth, Ph.D., Executive Director, Santa Fe Impact DWI, 
  prepared statement.............................................    50


                        FIGHTING DRUNK DRIVING: 
                     LESSONS LEARNED IN NEW MEXICO

                              ----------                              


                       WEDNESDAY, AUGUST 10, 2011

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                   Albuquerque, NM.
    The Committee met, pursuant to notice, at 11:38 a.m. at the 
University of New Mexico School of Law, 1117 Stanford Drive, 
Northeast, Albuquerque, New Mexico 87106, Hon. Tom Udall, 
presiding.

             OPENING STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. I do not know if--the dean of the law school 
was here, and I guess I missed him. Oh, yes, yes. There you 
are. OK. I meant--sorry we may be running just a little bit 
late. I ran into the press out there and got waylaid, so 
thanks. Thanks, Dean. Great for you--to have you here and to 
host us.
    Good morning, and I would like to welcome all of you to 
this official hearing of the Commerce, Science, and 
Transportation Committee. The focus of today's hearing is on 
drunk driving, and the successes and opportunities we face in 
ridding our roads of impaired drivers.
    I believe New Mexico is the ideal place to hold this 
hearing for two reasons. Number one, our state has faced great 
challenges in combating DWI, and, number two, through focused 
efforts, we have made progress in the battle.
    We have had an important story to tell, one that can help 
other states and other communities who face similar challenges. 
And that will help them learn how to replicate our success.
    We are fortunate to have here with us today three panels of 
witnesses. They represent a cross-section of advocates, law 
enforcement, health professionals, and government, all working 
together to save lives. Their testimony will help us understand 
the long road we have taken to get to where we are, and why we 
must continue to make combatting drunk driving a priority.
    As all of you may be aware, it was not too long ago that 
New Mexico ranked first in the Nation in alcohol-related 
fatalities. I remember it all too well. In the years before I 
was elected to serve as New Mexico Attorney General, our state 
ranked worst in the Nation for DWI fatalities, not just once, 
but seven times. In fact, New Mexico was in the top three worst 
in the Nation from 1982 through 1992.
    During that time, DWIs accounted for nearly 50 percent of 
all fatal crashes in New Mexico. Now, those dismal rankings and 
statistics--they should have been enough to spur change. But 
unfortunately, that just was not the case. It would take a 
tragic crash in 1992 that killed a family of four on Christmas 
Eve for New Mexico to act on the problem in our backyard.
    In that crash, a drunk driver was speeding the wrong way 
down the highway at over 90 miles per hour. He crashed head-on 
into a car traveling in the correct direction, killing a mother 
and her three young daughters. On Christmas Eve, their lives 
ended tragically, their families' lives forever altered, and it 
was entirely preventable.
    It is hard to imagine anything positive resulting from such 
a horrendous crash. It shakes me to the core just thinking 
about it. But there was something positive that emerged. This 
tragedy galvanized public opinion against drunk driving, and 
helped us advance legislation to reduce drunk driving in New 
Mexico, and improved the safety of our roads.
    After that crash, I worked hard with Nadine Milford, the 
mother and grandmother of the victims of that terrible 
accident. Together, Nadine and I and many others--many I see 
here in the audience--were successful in passing legislation 
that reduced the legal limit for DUI from .1 to .08 in New 
Mexico. We were among the first States in the Nation to pass 
this legislation, far in advance of the Federal law.
    We also were successful in passing legislation to close 
drive-up liquor windows and to impose tougher penalties for 
repeat offenders.
    During those years, we made significant progress in 
reducing drunk driving fatalities in New Mexico. But there was 
still much work to be done, and in the years that I have been 
serving in Congress, New Mexico has taken additional steps to 
address drunk driving. That includes enacting all-offender 
ignition interlock legislation, helping to further reduce drunk 
driving in New Mexico.
    Today we will hear more about the path that New Mexico has 
taken in the hopes that other states will be able to learn from 
our successes. Additionally, we will learn that despite all the 
progress that has been made to end drunk driving, it remains a 
significant challenge today.
    But our work still is not done. Today drunk driving still 
accounts for 30 percent of all traffic fatalities. That is why 
I introduced the ROADS SAFE Act at the Federal level. This 
legislation will refund a research program to develop passive, 
in-vehicle alcohol detection systems that could, in time, end 
drunk driving. We will hear more about this program before the 
hearing concludes.
    Before we move on to the first panel, I would like to 
acknowledge the testimony submitted for the record by Dick 
Roth. Dick was unable to join us today, but he is a recognized 
expert on ignition interlocks, and is from the State of New 
Mexico.
    I would also like to acknowledge Linda Atkinson. Linda is a 
tireless advocate who has worked for more than 20 years to 
reduce and eliminate drunk driving in New Mexico, and I am 
happy to see she is able to join us today. Linda, why don't you 
stand up and be recognized here? Thank you. She says, do you 
remember that was our task force report that we made in--after 
the Christmas Eve crash to the legislature. We had a task force 
working for 18 months, and we were able to at the crucial 
point, be able to tell the legislature what this task force had 
done, and what their recommendations were.
    Linda, I also look forward to receiving your written 
testimony. I know you will give us some real insights.
    Last, but definitely not least, I want to thank the 
University of New Mexico Law School, my law school, and in 
particular, Dean Kevin Washburn and his staff members, Carmen 
Rawls and Tony Anderson. They generously opened their doors to 
us for this hearing and helped us make today possible with all 
their hard work.
    And finally, welcome to New Mexico and to the Land of 
Enchantment to all of our out-of-state witnesses and staff 
members. We hope you will stay here a long time and spend a lot 
of money.
    [Laughter.]
    Senator Udall. For today's hearing, we ask all witnesses to 
provide their oral comments in 5 to 6 minutes. Their written 
testimony will be put into the official record. If they have 
longer testimony, they are welcome to submit it for the record.
    And I understand that some of you in the audience may also 
wish to offer testimony. We welcome your comments, and we will 
keep the record open through Friday, August 19, to allow 
sufficient time to submit something for the official record.
    Senator Udall. And I think by keeping that record open by 
August 19, some of you that hear this testimony will then be 
able to respond to it and give us your ideas in your written 
testimony. And we really, really look forward to that.
    If you have a written statement today, you can give it to 
one of my staff members, also on my left here is the Commerce 
Committee Senate staff, or you can e-mail directly to the 
Commerce Committee, which I believe is the e-mail address which 
is on the handout you received when you came here and walked in 
the door.
    And now I would like to welcome our first panel of 
witnesses. The first panel--in the first panel we welcome the 
National Highway Traffic Safety Administration's Deputy 
Administrator, Ron Medford, and the New Mexico Department of 
Transportation's Traffic Safety Division Director, Michael 
Sandoval. Great to have you both here. And, Administrator 
Medford, why don't you kick it off and start?

                  STATEMENT OF RONALD MEDFORD,

                  DEPUTY ADMINISTRATOR, NHTSA,

               U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Medford. Good morning.
    Senator Udall. You bet. Thank you. Great to have you here.
    Mr. Medford. Mr. Chairman, thank you for the opportunity to 
testify today.
    Impaired driving is one of the most serious traffic risks 
facing the Nation, killing more than 10,000 people every year. 
Every day, approximately 30 people die in motor vehicle crashes 
that involve an alcohol-impaired driver. Put another way, in 
the United States, someone dies about every 48 minutes due to 
an impaired driver. The annual costs of alcohol-related crashes 
totals more than $51 billion. Addressing this challenging issue 
is one of our highest priorities at NHTSA.
    I would like to commend the Committee and you personally, 
Mr. Chairman, for your leadership on this very important issue 
and on highway safety in general. Since the enactment of 
SAFETEA-LU in 2005, the Nation has enjoyed consistent 
reductions in highway fatalities and injuries, and the work of 
the Committee has been a major contributor to this progress.
    While we are pleased that the safety impacts are positive, 
I know we share the view with the Committee that much more 
needs to be done to reduce the suffering and economic cost of 
highway crashes, and particularly the criminal behavior of 
driving while impaired.
    The impaired-driving problem is complex and requires a full 
range of countermeasures to be effective. From our decades of 
experience and research, we know that effective measures 
include High Visibility Enforcement, training for law 
enforcement personnel, enhanced prosecution and adjudication, 
and zero tolerance for under-age drinking. We also put a 
special emphasis on reaching high-risk populations, such as 
those with high blood alcohol concentrations and repeat 
offenders.
    We continuously reassess our approach and remain focused on 
finding even more effective and efficient means for fighting 
impaired-driving. We also work with State, local, and industry 
partners to develop and test new strategies and new techniques.
    NHTSA supports strong laws for high BAC offenders and for 
drivers who try to circumvent the law by refusing to submit to 
a BAC test. We support even tougher impaired-driving laws and 
improved enforcement and adjudication of these laws as key 
strategies in efforts to reduce impaired-driving.
    The ignition interlocks are another critical component of a 
comprehensive impaired-driving program. A summary of 10 
evaluations of interlock programs in the United States and 
Canada indicated that interlocks cut DUI recidivism by at least 
50 percent compared to similar offenders without interlocks. 
Based on this strong evidence, NHTSA recommends that ignition 
interlock programs be more widely implemented. I am pleased to 
point out that New Mexico has been a leader in ignition 
interlock program development, and currently has one of the 
highest rates of interlock installations per capita in the 
Nation.
    Advanced technology could also play an integral role in 
reducing impaired-driving. NHTSA is working to develop vehicle-
based alcohol detection technologies. Such technologies have 
the potential to prevent drunk drivers from operating vehicles, 
and if widely deployed, could be invaluable in our efforts to 
eliminate drunk driving. The goal is to develop a non-invasive, 
seamless technology that accurately measures driver BAC and 
prevents a legally-impaired driver from operating a motor 
vehicle.
    The Driver Alcohol Detection System, or DADSS for short, is 
being developed in partnership with the automotive industry, 
and has the potential to save a significant number of lives 
every year. It is estimated that nearly 8,000 lives could be 
saved annually by a system that could prevent driving by those 
who are over the legal limit for alcohol. You will hear more 
about this from other speakers today.
    But the most important component needed to reduce impaired-
driving is strong leadership and commitment at the highest 
level of state and local government to enact strong and 
effective impaired-driving laws, and to implement multifaceted 
programs.
    New Mexico is a model for the Nation in this regard. Our 
agency recognized this leadership and vision in 2004 when New 
Mexico applied for and won, through a competitive process, a $3 
million NHTSA grant to develop and implement a comprehensive 
impaired-driving program. Over the next 5 years, the State's 
Department of Transportation worked in concert with other state 
organizations to implement a number of innovative and effective 
strategies that have significantly reduced impaired-driving in 
New Mexico.
    The model demonstrated by New Mexico now allows other 
States to identify deficiencies in their impaired-driving 
program, develop methods to address those deficiencies, and 
gain support and resources to implement those methods. This 
model has been proven to be so effective that we now encourage 
all States to adopt it.
    I know, Mr. Chairman, that you have made combatting 
impaired-driving a centerpiece of your efforts as New Mexico's 
Attorney General in the 1990s, and continue that work today in 
the Senate. And with initiatives like this hearing to call 
attention to this serious public health problem, we 
congratulate you for doing so.
    In the coming weeks, NHTSA will kick off its Annual 
Impaired Driving National Crackdown from August 19 through 
September 5. This campaign has helped to reduce impaired-
driving nationwide by 17 percent between 2004 and 2009. To keep 
the campaign fresh, we have developed a new look and feel for 
this year's campaign, with a ``Drive Sober or Get Pulled Over'' 
theme. This is a new theme for us this year. New Mexico has 
been an active partner in this campaign, and we look forward to 
maintaining our partnership with the State on the national 
campaign and on collaboration with State initiatives.
    The success of New Mexico's demonstration project has shown 
that by working together, using effective evidence-based 
strategies, we can overcome this long-time problem and 
ultimately save many more lives.
    Thank you again for this opportunity and I would be glad to 
answer any questions that you have.
    [The prepared statement of Mr. Medford follows:]

  Prepared Statement of Ronald Medford, Deputy Administrator, NHTSA, 
                   U.S. Department of Transportation

    Good morning Mr. Chairman, and members of the Committee. I 
appreciate the opportunity to testify before this committee; 
particularly in such a lovely and humidity-free city.
    Impaired driving is one of the most serious traffic risks facing 
the Nation, killing more than 10,000 people every year. In fact, every 
day, approximately 30 people die in motor vehicle crashes that involve 
an alcohol-impaired driver. Put another way, in the United States, 
someone dies every 48 minutes due to an impaired driver.\1\ The annual 
cost of alcohol-related crashes totals more than $51 billion.\2\ 
Addressing this challenging issue is one of our highest priorities.
---------------------------------------------------------------------------
    \1\ CDC, Injury Prevention and Control. Impaired driving. 
www.cdc.gov/MotorVehicleSafety/Impaired_Driving/impaired-
drv_factsheet.html.
    \2\ Blincoe L, Seay A, Zaloshnja E, Miller T, Romano E, Luchter S, 
et al., The Economic Impact of Motor Vehicle Crashes, 2000. Washington 
(D.C.): USDOT, National Highway Traffic Safety Administration (NHTSA); 
2002.
---------------------------------------------------------------------------
    I would like to commend the Committee, and you Mr. Chairman, for 
your leadership on this very important issue and on highway safety in 
general. Since the enactment of the Safe, Accountable, Flexible, 
Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-LU) in 
2005, the Nation has seen consistent reductions in highway fatalities 
and injuries and the work of this committee has been a major 
contributor to this progress. While we are pleased that the safety 
impacts are positive, I know we share the view with the Committee that 
much more needs to be done to reduce the suffering and economic cost of 
highway crashes and particularly the criminal behavior of driving while 
impaired (DWI).
    The impaired-driving problem is complex and requires a full range 
of countermeasures. Research has shown that effective measures include:

  <bullet> High Visibility Enforcement (HVE);

  <bullet> training for law enforcement personnel;

  <bullet> enhanced prosecution and adjudication; and

  <bullet> zero tolerance for underage drinking.

    We also put a special emphasis on reaching high-risk populations, 
such as high BAC (blood alcohol concentration) or repeat offenders. We 
continuously re-assess our approach and remain focused on finding even 
more effective and efficient means for fighting impaired driving. We 
also work with State, local and industry partners to develop and test 
new strategies and techniques.
    Strengthening impaired driving laws and improving enforcement and 
adjudication of these laws are key strategies in efforts to reduce 
impaired driving. The U.S. Department of Transportation (USDOT) 
supports strong laws for high BAC offenders and for drivers who try to 
circumvent the law by refusing to submit to a BAC test.
    Ignition interlocks are another critical component of a 
comprehensive impaired driving program. A summary of 10 evaluations of 
interlock programs in the United States and Canada indicated that 
interlocks cut DWI recidivism by at least 50 percent, and sometimes 
more, compared to similar offenders without interlocks.\3\ Based on 
this strong evidence, USDOT recommends that ignition interlock programs 
be more widely implemented.\4\ I am pleased to point out that New 
Mexico has been a leader in ignition interlock program development and 
currently has one of the highest rates of interlock installations per 
capita in the Nation.
---------------------------------------------------------------------------
    \3\ Elder R., Voas R., Beirness D., et al., Effectiveness of 
ignition interlocks for preventing alcohol-impaired driving and 
alcohol-related crashes. Am J Prev Med 2011;40(3):362-376.
    \4\ CDC Community Guide: Impaired Driving: Research & Activities, 
http://www.thecommunity
guide.org/mvoi/AID/ignitioninterlocks.html.
---------------------------------------------------------------------------
    Advanced technology could also play an integral element in reducing 
impaired driving. The Department is working to develop vehicle-based, 
alcohol detection technologies. Such technologies have the potential to 
prevent drunk drivers from operating vehicles, and if widely deployed, 
could be invaluable in our efforts to eliminate drunk driving. The goal 
is to develop non-invasive, seamless technologies that can accurately 
measure driver BAC and prevent a legally impaired driver from operating 
a motor vehicle.
    The Driver Alcohol Detection System for Safety, or DADSS for short, 
is being developed in partnership with the automotive industry, and has 
the potential to save a significant number of lives annually. It is 
estimated that nearly 8,000 lives could be saved by a system that could 
prevent driving by those who are over the legal limit for alcohol.\5\ 
You will hear more about this from other speakers today.
---------------------------------------------------------------------------
    \5\ DADSS (Driver Alcohol Detection System for Safety.) http://
www.dadss.org/. Accessed on 8/9/11.
---------------------------------------------------------------------------
    But the most important component needed to reduce impaired driving 
is strong leadership and commitment at the highest levels of State and 
local government to enact strong and effective impaired driving laws, 
and implement multi-faceted prevention programs.
    New Mexico is a model for the Nation in this regard. Our agency 
recognized this leadership and vision in 2004, when New Mexico applied 
for and won, through a competitive process, a $3 million USDOT grant to 
develop and implement a comprehensive impaired driving program. Over 
the next 5 years, the State's Department of Transportation worked in 
concert with other State organizations to implement a number of 
innovative and effective strategies that have significantly reduced 
impaired driving in New Mexico. The model demonstrated by New Mexico 
allows states to identify deficiencies in their impaired driving 
program, develop methods to address those deficiencies, and gain 
support and resources to implement those methods. This model has proven 
so effective that we now encourage all states to adopt it.
    In the coming weeks, USDOT will kick off its annual Impaired 
Driving National Crackdown, from August 19 through September 5. This 
campaign has helped to reduce impaired driving nationwide by 17 percent 
between 2004 and 2009. To keep the campaign fresh, we have developed a 
new look and feel this year, with a ``Drive Sober or Get Pulled Over'' 
theme. New Mexico has been an active partner in this campaign, and we 
look forward to maintaining our partnership with the State on the 
national campaign and on collaboration on State initiatives.
    The success of the New Mexico demonstration project has shown that 
by working together and using effective, evidence-based strategies, we 
can overcome this long-time problem, and ultimately save many more 
lives.
    Thank you again for this opportunity. I would be glad to answer any 
questions you may have.

    Senator Udall. Thank you very much, Administrator Medford.
    And, Director Sandoval, please go ahead with your 
testimony.

          STATEMENT OF MICHAEL R. SANDOVAL, DIRECTOR,

       TRAFFIC SAFETY DIVISION, NEW MEXICO DEPARTMENT OF 
                     TRANSPORTATION (NMDOT)

    Mr. Sandoval. Good morning, Mr. Chairman. My name is 
Michael Sandoval. I am the Director of the New Mexico 
Transportation's Traffic Safety Division. I am here on behalf 
of my Cabinet Secretary, Alvin Dominguez. I have been with the 
NMDOT for over 13 years. I would like to thank you for allowing 
me to testify today on this very important issue.
    The following is a chronological listing of important 
events over the last 7 years that have had a significant impact 
on the overall reduction in DWI-related deaths in New Mexico. I 
thought it would be important to show the progression of 
significant projects, programs, and laws that contributed to 
the State's overall success.
    Starting in calendar year 2004, 219 people died in alcohol-
related crashes in New Mexico. At that time, it was the third 
straight year where no progress was made in reducing DWI-
related deaths in our State. New Mexico was in the top three 
worst States in the Nation on this issue.
    Also in 2004, NMDOT was made the lead agency to fight 
against DWI. DWI became one of the major priorities for our 
department. This prompted a review and evaluation of all DWI-
related funding and projects under the DOT's purview. With the 
help of many partners, this sparked the beginning of a change 
in culture regarding this deadly issue in our State.
    In 2004, DOT was awarded, through a competitive process, a 
DWI demonstration project by NHTSA in the amount of $3 million. 
The project was focused on DWI enforcement and public awareness 
in the counties where DWI was the deadliest. This included San 
Juan, McKinley, Santa Fe, Bernalillo, Dona Ana, and Rio Arriba 
Counties, along with the Navajo Nation.
    Unique enforcement and public awareness partnerships were 
developed in these areas based on the diversity and the culture 
of the population. This project was well above and beyond the 
yearly funding provided by NHTSA through the regular Section 
402 program.
    In 2005, 194 people died in correlated crashes. This starts 
a downward trend in the number of people dying resulting from 
DWI each year. The downward trend has continued through 2010, 
where a record low of 139 people died in correlated crashes in 
our State. This translates into a 36 percent reduction since 
2004.
    Through this NHTSA project, full-time DWI law enforcement 
officers were hired in each of the identified counties, up to 
four in each county. This was above and beyond the normal 
workforce of the police agency. This allowed the new officers 
to dedicate 100 percent of their time to enforcing DWI laws 
through high visibility checkpoints and saturation patrols.
    Culturally sensitive media campaigns were developed and 
launched in each of the identified counties. For example, 
counties where heavy Native American populations existed had 
slightly different messaging than counties with heavy Hispanic 
populations. Targeted enforcement directed at serving alcohol 
to minors and serving alcohol to intoxicated persons became a 
priority. There were many bars and restaurants that were not 
abiding by the Liquor Control Act when it came to these issues.
    Legislation was passed and signed into law mandating all 
convicted DWI offenders to install an ignition interlock device 
in their vehicle. New Mexico was the first State to pass such a 
law requiring first offenders to install ignition interlock 
devices.
    And finally, in 2005 a DWI leadership team was formed and 
met monthly on major issues. This committee was co-chaired by 
the DWI Czar and by my position. This committee was important 
in establishing policy change. Overall DWI funding was also 
discussed so that not to duplicate efforts or to spend money on 
unproven strategies.
    In calendar years 2006 and 2007, 191 and 176 people died, 
respectively. This marked the third straight year that 
fatalities had declined in our State, and this was statistical 
evidence that DWI-related deaths were once again on a steady 
downward trend.
    Projects and programs continued to mature, including a big 
media campaign in the Four Corners area. This included specific 
television, radio, and billboard ads directed at the Native 
American population. All ads included Native American 
participation input and input on the type of messaging.
    A court monitoring project, administered by our department, 
was implemented to assure that minimum mandatory penalties were 
being included in judgment and sentencing documentation. The 
focus was six county courts. The ignition interlock law was a 
big point of emphasis. It was important to assure that 
interlocks were installed on convicted offenders' vehicles on a 
consistent and wide-spread basis. The NMDOT is responsible for 
the Ignition Interlock Indigent Fund, and the program. The 
Motor Vehicle Division's responsibility is the driver's 
licensing portion.
    In calendar year 2008, 143 people died in our State due to 
DWI. At the time, this was a record low for the number of 
deaths in our State. New Mexico was now out of the top 10 worst 
States for DWI-related motor vehicle deaths. Also, New Mexico, 
because they were out of the top 10, would lose funding of 
approximately $1 million because the State was no longer in the 
top 10, and this is related to the criteria in the NHTSA 
Section 410 program.
    The State worked with McKinley County to incorporate a 
cross-commissioning agreement between the City of Gallup, the 
county of McKinley, State police, and the Navajo Nation. This 
agreement started the beginning of the McKinley County DWI Task 
Force, which allowed law enforcement to cross State and tribal 
jurisdictional lines to enforce DWI-related laws.
    And finally, NMDOT conducted a Traffic Safety Summit to 
gather information and input on the State's new comprehensive 
traffic safety plan. This was a Federal Highway Administration 
mandate to incorporate both behavioral and engineering 
solutions aimed at reducing overall traffic fatalities. This 
plan incorporated DWI prevention strategies and further 
increased the exposure of DWI-related projects and programs.
    Calendar year 2009 to present, New Mexico has continued to 
see a reduction in alcohol-related crash deaths. A new record 
low was established in 2010, which was 139 deaths. After the 
first 7 months of this year, Mr. Chairman, New Mexico is once 
again on pace to reach a new record low.
    Although New Mexico's effort was a comprehensive approach, 
looking back, I believe the following three strategies had the 
most impact on our success. First, implementing the targeted 
high visibility enforcement and public awareness campaign, with 
a focus on both a statewide general message and a specific 
message for local high-risk areas. It was important for law 
enforcement to have dedicated DWI officers and/or DWI units 
that were visible and well-known throughout the community. If 
law enforcement is forced to incorporate DWI enforcement into 
their other duties, it is likely it would not have a 
significant impact on deterring drunk driving. Bottom line, if 
people do not believe they will be caught, they are more likely 
to engage in this dangerous behavior.
    Second, passed laws that are tough on first offenders--
tough sanctions for first offender have two positive effects. 
First, tough laws act as a deterrent to drunk driving in the 
first place. If people believe even the first offense will have 
a significant negative impact on them, they will be less likely 
to engage in the behavior. Too many believe that a first 
offense will just be a slap on the wrist. Passing the ignition 
interlock law for the first offender was a major milestone in 
reducing the occurrence of drunk driving. And, second, if you 
have tough laws for first offenders, they will be less likely 
to become a second offender or a repeat offender.
    And, third, implementing a court monitoring program with 
open communication with the judiciary. This both supported law 
enforcement efforts to help ensure that there are consistent 
consequences for DWI offenders. Although law enforcement makes 
the arrest on the front end of the process, they are heavily 
involved in the back end judicial process. Law enforcement felt 
supported after the DWI conviction when the offender received 
the sanctions that were originally outlined in the law. Second, 
it is difficult to assess what impact laws are having if they 
are not implemented consistently. Too many times, new laws are 
passed and don't have the expected positive effect. This may 
have to do more with the inconsistent implementation rather 
than the law itself.
    So, finally, Mr. Chairman, on behalf of my Cabinet 
Secretary, Alvin Dominguez, I would like to thank you for your 
time and your invitation to speak. I would like to close by 
saying that although the downward trend shows success and that 
significant progress has been made in our State, no one will be 
satisfied until there are zero deaths on our roadways as DWI 
deaths are 100 percent preventable.
    I would be happy to answer any questions or provide more 
information. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Sandoval follows:]

  Prepared Statement of Michael R. Sandoval, Director, Traffic Safety 
       Division, New Mexico Department of Transportation (NMDOT)

    Good Morning, my name is Michael Sandoval and I am the Director of 
the New Mexico Department of Transportation's Traffic Safety Division. 
I am here on behalf of my Cabinet Secretary Alvin Dominguez. I have 
been with the NMDOT for over 13 years. I would like to thank you for 
allowing me to testify today on this very important issue.
    The following is a chronological listing of important events over 
the last 7 years that have had a significant impact on the overall 
reduction in DWI-related deaths in New Mexico. I thought it would be 
important to show the progression of significant projects, programs, 
and laws that contributed to the State's overall success.

Calendar Year 2004

  <bullet> 219 people died in alcohol related crashes in New Mexico. At 
        the time, it was the third straight year where no progress was 
        made in reducing DWI-related deaths in the State. New Mexico 
        was in the top three worst States in the Nation on this issue.

  <bullet> The NMDOT was made the lead agency on the fight against DWI. 
        DWI became one of the major priorities for the NMDOT. This 
        prompted a review and evaluation of all DWI-related funding and 
        projects under the NMDOT's purview. With the help of many 
        partners, this sparked the beginning of a change in culture 
        regarding this deadly issue.

  <bullet> The NMDOT was awarded through a competitive process, a DWI 
        Demonstration project by the National Highway Traffic Safety 
        Administration (NHTSA) in the amount of $3 million dollars. The 
        project was for focused DWI enforcement and public awareness in 
        the counties where DWI was the deadliest (San Juan, McKinley, 
        Santa Fe, Bernalillo, Dona Ana, Rio Arriba, and Navajo Nation 
        Reservation). Unique enforcement and public awareness 
        partnerships were developed in these areas based on the 
        diversity and culture of the population. This project was above 
        and beyond the yearly funding provided by NHTSA through the 
        Section 402 program.

Calendar Year 2005

  <bullet> 194 people died in alcohol related crashes in New Mexico. 
        This starts a downward trend in the number of people dying as a 
        result of DWI each year. The downward trend has continued 
        through 2010 where a record low of 139 people died in alcohol-
        related crashes in New Mexico. This translates into a 36 
        percent reduction in alcohol related deaths since 2004.

  <bullet> Through the NHTSA project, full-time DWI law enforcement 
        officers were hired in each of the identified counties (up to 
        four in each county). This was above and beyond the normal 
        workforce of the Police agency. This allowed the new officers 
        to dedicate 100 percent of their time to enforcing DWI laws 
        through high visibility checkpoints and saturation patrols.

  <bullet> Culturally-sensitive media campaigns were developed and 
        launched in each of the identified counties. For example, 
        counties with heavy Native American populations had slightly 
        different messaging then counties with heavy Hispanic 
        populations.

  <bullet> Targeted enforcement directed at serving alcohol to minors 
        and serving alcohol to intoxicated persons became a priority. 
        There were many bars and restaurants that were not abiding by 
        the Liquor Control Act when it came to these issues.

  <bullet> Legislation was passed and signed into law mandating all 
        convicted DWI offenders to install an ignition interlock device 
        in their vehicle(s). New Mexico was the first State to pass 
        such a law requiring 1st offenders to install interlock 
        devices.

  <bullet> A DWI Leadership was formed and met monthly on major issues. 
        This committee was Co-Chaired by the DWI Czar and the Director 
        of the Traffic Safety Division. This committee was important in 
        establishing policy change. Overall DWI funding was also 
        discussed so that not to duplicate efforts or spend money on 
        unproven strategies.

Calendar Year 2006/2007

  <bullet> 191 people died in alcohol-related crashes in 2006. 176 
        people died in alcohol related crashes in 2007 which marked the 
        third straight year that fatalities declined. This was 
        statistical evidence that DWI-related deaths were on a steady 
        downward trend.

  <bullet> Projects and programs continued to mature including a big 
        media campaign in the four corners area. This included specific 
        television, radio, and billboard ads directed at the Native 
        American population. All ads included Native American 
        participation and input on the type of messaging.

  <bullet> A court monitoring project (administered by the NMDOT) was 
        implemented to assure that minimum mandatory penalties were 
        being included in judgment and sentencing documentation. The 
        focus was the six-county courts. The ignition interlock law was 
        a point of emphasis. It was important to assure that interlocks 
        were installed on convicted offender's vehicles on a 
        consistent, widespread basis. The NMDOT is responsible for the 
        ignition interlock fund and program. The Motor Vehicle Division 
        is responsible for the ignition interlock driver licensing.

Calendar Year 2008

  <bullet> 143 people died in alcohol related crashes in 2008. At the 
        time, this was a record low for the number of deaths in New 
        Mexico related to DWI. New Mexico was now out of the top ten 
        worst States for DWI-related motor vehicle deaths. Also, NM 
        would lose funding (approximately $1 million) because the State 
        was no longer in the top ten (this is related to the NHTSA 
        Section 410 program).

  <bullet> The state worked with McKinley County to incorporate a cross 
        commissioning agreement between the City of Gallup, County of 
        McKinley, State Police, and the Navajo Nation. This agreement 
        started the beginning of the McKinley County DWI Task Force 
        which allowed law enforcement to cross State/Tribal 
        jurisdictional lines to enforce DWI-related laws.

  <bullet> NMDOT conducted a Traffic Safety Summit to gather 
        information and input on the State's Comprehensive Traffic 
        Safety Plan. This was a Federal Highway Administration mandate 
        to incorporate both behavioral and engineering solutions aimed 
        at reducing overall traffic fatalities. This plan incorporated 
        DWI prevention strategies and further increased the exposure of 
        DWI-related projects and programs.

Calendar Year 2009-Present
    New Mexico has continued to see a reduction in alcohol related 
crash deaths. A new record low was established in 2010 which was 139 
deaths. After the first 7 months of 2011, NM is once again on pace to 
reach a new record low. Although New Mexico's effort was a 
comprehensive approach, looking back I believe the following three 
strategies had the most impact on success:

        1. Implementing a targeted high visibility enforcement and 
        public awareness campaign with a focus on both a statewide 
        general message and a specific message(s) for local high risk 
        areas. It was important for law enforcement to have dedicated 
        DWI officers and/or DWI units that were visible and well known 
        throughout the community. If law enforcement is forced to 
        incorporate DWI enforcement into their other duties, it is 
        likely that it would not have a significant impact on deterring 
        drunk driving. Bottom line, if people don't believe they will 
        be caught, they are more likely to engage in this dangerous 
        behavior.

        2. Passed laws that our tough on the first offense. Tough 
        sanctions for a first offender have two positive effects. 
        First, tough laws act as a deterrent to drinking and driving in 
        the first place. If people believe that even the first offense 
        will have a significant negative effect on them, they will be 
        less likely to engage in the behavior. Too many people believe 
        that a first offense will just be a slap on the wrist. Passing 
        the ignition interlock law for the first offender was a major 
        milestone in reducing the occurrence of drunk driving in New 
        Mexico.

        3. Implementing a court monitoring program with open 
        communication with the Judiciary. This both supported law 
        enforcement efforts and helped to assure that there are 
        consistent consequences for DWI offenders. Although law 
        enforcement makes the arrest on the front end of the process, 
        they are heavily involved in the back end judicial process. Law 
        enforcement felt supported when after the DWI conviction, the 
        offender received the sanction outlined in the law. Second, it 
        is difficult to assess what impact laws are having if they are 
        not implemented consistently. Too many times new laws are 
        passed and don't have the expected positive effect. This may 
        have more to do with an inconsistent implementation rather than 
        the law itself.

    On behalf of my Cabinet Secretary Alvin Dominguez, I would like to 
thank you for your time and your invitation to speak. I would like to 
close by saying that although the downward trend shows success and that 
significant progress has been made in New Mexico, no one will be 
satisfied until there are 0 deaths on our roadways as DWI deaths are 
100 percent preventable.
    I would be happy to answer any questions or provide more 
information. Thank you.

    Senator Udall. Thank you, Director Sandoval. And I think 
one of the things that you have highlighted is how we have 
slowly been moving down. I remember in the 1990s, in that early 
period, we were up over 300 deaths a year. And what you have 
told us here in 2010, we are at 139. So, the difference between 
that 300 number and 139, those are all saved lives, and we 
should be proud of that. But just as you summarized your 
testimony, you know, we need to be vigilant. We always need to 
be doing better, and I don't think any of us are going to be 
happy until the number is down to zero. So, thank you for your 
testimony.
    Mr. Medford, I am going to start my questioning with you. 
As you mentioned, the Driver Alcohol Detection System for 
Safety, which is--we call, I guess, the acronym DADSS--has the 
potential to save nearly 8,000 lives annually. This program is 
a joint effort, or you could call it a public/private 
partnership between the automakers and NHTSA.
    Some may feel this technology should be developed solely by 
automakers, but could you talk more about the importance of the 
Federal role in developing this critical technology, and why--
why it is important that the automakers and NHTSA work with 
each other?
    Mr. Medford. Mr. Chairman, we--at NHTSA, we have a number 
of cooperative research programs with auto companies where we 
share--we think we share the responsibility for finding 
technical solutions to difficult problems. And the truth is 
that this problem is related to the driver and the condition of 
the driver. And we think the technology, which has to work well 
in the vehicle, has to include the vehicle manufacturer as part 
of understanding how to incorporate a technology into their 
vehicle.
    So, this is not a new model for us in terms of cooperative 
research programs. We are developing safety systems. We do it 
frequently. We have got a number of ongoing joint cooperative 
research programs and other safety technologies. This is one 
that gets a lot of visibility, but it is probably one of the 
most important things that we are doing. So, we think it is a 
perfectly appropriate and not an uncommon way for us to jointly 
do research to solve a difficult technical problem.
    Senator Udall. Thank you.
    Another question for you, Administrator Medford, some may 
be concerned with developing in-vehicle alcohol detection 
systems and think that cars should not be the solution. Can you 
talk more about the role that advancements in vehicle 
technology have played in improving the safety of our roads?
    Mr. Medford. Yes. I think that, first of all, the 
technology that we are developing for the alcohol--you know, it 
is a part of kind of a comprehensive strategy for alcohol, and 
I mentioned that in there. There really has to continue to be a 
very comprehensive program, including this technology if we can 
get it to work effectively.
    But we have a number of safety technology research programs 
that we have developed with the auto companies. I think the--
probably the one that is most prominent, and it is probably the 
most effective safety technology since the seat belt, is 
something called ``electronic stability control,'' where we 
worked and did cooperative research with the industry to then 
develop a test method and now a Federal regulation. By 2012, 
every new vehicle in the United States will have to have this 
technology, which really is able to detect and correct for 
driver error. If somebody oversteers or understeers a vehicle, 
instead of going off the road and rolling over and killing 
themselves, this technology detects it before it happens, and 
makes a corrective action with the driver not having to do 
anything. And so, we have lots of technologies like that.
    We have got another major program that we are doing through 
the Intelligent Transportation System today, which is a 
vehicle-to-vehicle communications technology, which we think is 
going to be probably the next largest safety improvement in 
vehicle safety in the next decade, where we are having vehicles 
communicate with each other and then sharing information, and 
then taking corrective action.
    So, there are lots of examples of pretty tough challenging 
and technical problems that we have dealt with cooperatively 
using research. And we think this one is appropriately done in 
the same way.
    Senator Udall. Thank you very much, and I appreciate your 
answer on that question.
    Mr. Sandoval, in your testimony, you mentioned targeted 
messaging to address drunk driving. And I have heard that one 
of the most successful campaigns was the 100 Days and 100 
Nights of Summer. Can you tell me more about the campaign and 
how it would target drunk driving?
    Mr. Sandoval. Sure, Mr. Chairman. A lot of the last DWI 
mobilization periods were only a two-week or less period, and I 
think with 100 Days of Summer, because it was such a long 
period of time, 100 days, we were able to get a stronger 
commitment from law enforcement.
    And what that turned into was a higher level of enforcement 
over a longer sustained period of time. And when you couple 
that with the summer months when driving is higher, when there 
is a higher percentage of fatalities, we were able to get a 
bigger, stronger bang for our dollar. And we were able to have 
that consistent message over a longer period of time.
    Senator Udall. All right. Thank you. In your remarks you 
mentioned that New Mexico lost funding as it successfully 
addressed drunk driving and rose--it got out of the top 10 
offenders, and as a result of that, then lost funding. How 
critical was that funding to advance the Department of 
Transportation's efforts? And would you agree it's important to 
maintain funding levels in the next surface transportation 
reauthorization to help States combat drunk driving and improve 
the safety on our roads?
    Mr. Sandoval. So, Mr. Chairman, part one of that question 
is, that funding was very critical. When you coupled that extra 
funding that we received with the demonstration project it 
awarded, that really gave New Mexico the shot in the arm that 
it needed. We needed some additional resources to do some 
different things to get the trend moving in the right 
direction, so that fund--funding was critical.
    The second part of your question, I have been doing this 
for 14 years, and I have never seen the amount of momentum and 
progress that we have made in the last several years. And I 
think any cuts to future funding could really potentially harm 
the progress and possibly have us move back in the wrong 
direction. So, I am hopeful that funding will at least be 
maintained so that we continue our momentum and continue our 
progress.
    Senator Udall. Great. Thank you very much. And that 
completes my questions for you. We are happy to have you stay, 
but I know that the both of you have busy schedules and things 
to do. So, you are excused at this point, and we will--we are 
going to be moving on to the second panel here.
    Mr. Sandoval. Thank you, Mr. Chairman.
    Senator Udall. So, we are going to be calling up the second 
panel at this point.
    The second panel today includes the Albuquerque Mayor, 
Mayor Berry; the Executive Director of the New Mexico Chapter 
of MADD, Lora Lee Ortiz; the Las Cruces Police Department, 
Chief Williams; and Dr. Cameron Crandall from the University of 
New Mexico Department of Emergency Medicine.
    And, Mayor Berry, great to have you here. I know this is 
something in terms of an issue that you have been interested 
in, and we really look forward to hearing from you. And, 
please, why don't you start the testimony, and we will just 
move down the line here.

          STATEMENT OF HON. RICHARD J. BERRY, MAYOR, 
                      CITY OF ALBUQUERQUE

    Mr. Berry. Well, thank you, Senator Udall. And thank you 
for inviting me to present testimony and allowing me to address 
this important topic of driving under the influence in New 
Mexico.
    First of all, as Mayor of Albuquerque, please allow me, 
again, to welcome you obviously to your home State, but also to 
all the visitors with us today from out of state. Welcome to 
our wonderful city. We hope you have an opportunity to 
experience our unique and culturally rich community and all 
that it has to offer while you are here.
    The City of Albuquerque encompasses 181 square miles, and 
it includes both rural and metropolitan areas. With over 
545,000 residents in the city, and over 900,000 people in the 
overall metropolitan area, we are the largest city in the State 
of New Mexico.
    And as you know, Senator, New Mexicans are incredibly and 
justifiably proud of our heritage, history, and unique culture. 
Like any other large and geographically diverse State, we have 
our share of challenges, including DUI.
    DUI is a complicated problem with no single solution. I 
believe strongly that a multi-pronged approach encompassing 
education, enforcement, adjudication, treatment, and 
rehabilitation are the keys to positively impacting DUI in any 
community, including Albuquerque. Preventing and combating DUI 
in Albuquerque is a top priority for our city, this 
Administration, advocacy groups, such as MADD and others, and 
the city's police department.
    We are pleased to report that fatal crashes in general have 
dropped from 38 in 2008 to 32 in 2010 in Albuquerque, and 
alcohol-related fatalities are on a decline recently. In 2008, 
there were 11 alcohol-related fatalities, and the number 
dropped slightly to 9 fatalities in 2009, then back up to 11 in 
2010. And for the current year to date, we have had 3 alcohol-
related fatalities. While this is an encouraging recent drop, 
we must remain committed to the cause so that the trend 
continues.
    I have every reason to believe that our officers are 
working hard to fight drunk driving in our city as DUI arrests 
are up by 7 percent over this time last year.
    I would like to take a few minutes to share with you this 
Administration's current strategies for addressing DUI in the 
City of Albuquerque.
    Within the area of enforcement, we believe checkpoints are 
an effective tool in apprehending offenders and getting them 
off the road. For 2011, arrests at sobriety checkpoints have 
increased by 23 percent as compared to this time last year.
    We maintain good working relationships with our partners 
and other local law enforcement agencies, which allows us a 
coordinated approach to DUI. APD frequently conducts multi-
agency sobriety checkpoints with the Bernalillo County 
sheriff's department and New Mexico State police.
    The Albuquerque Police Department has increased the number 
of DUI saturation patrols, and generally conducts at least one 
saturation patrol per day. Saturation patrols have proven to be 
very good for combatting DUI, and are oftentimes statistically 
somewhat more effective than checkpoints.
    APD has increased the number of Drug Recognition Expert 
certified officers by over 20 percent, so that when individuals 
exhibit signs of impairment for which alcohol has been ruled 
out, they can identify other potential legal and illicit drugs 
which may be the source of impairment.
    Our DUI-seizure sergeant has implemented a system in 
collaboration with the City Attorney's Office to hold DUI 
offenders more accountable in seizure hearings.
    We have conducted biannual DUI warrant roundups for 
offenders who fail to appear in court or fail to comply with 
conditions as set by the court.
    As it relates to the use of emerging technologies to fight 
DUI, the Albuquerque Police Department is working with the 
State's Scientific Laboratory Division, which sets regulations 
for the use of intoxilyzer machines in order to seek the 
capability to improve our system. For example, once approved by 
the State lab, the department plans to upgrade intoxilyzer 
software so that breath card information is automatically 
uploaded to the District Attorney's office by e-mail in 
preparation for prosecution. This provides greater protections 
for the chain of custody of evidence and relevant data.
    Also, within the area of advancing technology, we have 
acquired new equipment to assist with DUI enforcement, such as 
a new BAT mobile, laser speed measurement devices for each DUI 
officer, dash and/or lapel cameras, portable breath testers, 
and tint meters.
    Under the umbrella of awareness, the department has taken 
steps to highlight the problem of DUI in our community with the 
intent to encourage people to make better choices. APD has 
utilized electronic billboards to advertise DUI-seizure 
auctions, and advised the public of the consequences of DUI. 
They submit DUI arrest information to the local newspaper, 
which regularly features the mug shots of individuals who have 
been recently arrested for DUI.
    APD has expanded efforts to include a public awareness and 
education campaign. The traffic division has increased the 
number of community functions their officers attend to include 
presentations at schools and businesses to educate about the 
dangers of drinking and driving.
    The department works in close collaboration with the local 
Mothers Against Drunk Drivers organization. Representatives of 
MADD attend checkpoints, assisting group presentations and 
coordinate the Victim Impact Panel, a very powerful tool to 
show offenders the very real and negative consequences of 
drinking and driving.
    Our traffic division lieutenant has instituted a program 
with an emphasis on accountability for officers and supervisors 
working within the DUI grant overtime. This has resulted in an 
increase in the number of DUI arrests per officer hour worked. 
We plan to continue to improve our public education and 
awareness campaign and reeducate patrol officers on DUI-seizure 
procedures.
    In general terms, I believe we are on the right track in 
combating DUI in Albuquerque and throughout New Mexico, but we 
must remain vigilant.
    For the last several years, the State has had an aggressive 
marketing campaign, including compelling television ads geared 
at various demographics, which have been significantly impacted 
by DUI. The marketing campaign is funded by the National 
Highway Traffic Safety Administration. The ads, combined with 
additional funding, targeted for high-incident counties, such 
as Bernalillo County, have likely contributed to the decline in 
DUI fatalities in our region.
    I'm encouraged by programs such as Power Talk 21, 
spearheaded by Mothers Against Drunk Drivers. This initiative 
attempts to reach young people by asking parents to talk to 
their kids about drinking and emphasizing the importance of 
waiting to drink until the age of 21. We cannot take for 
granted the impact of what drinking at a young age has in terms 
of negative implications for potential addiction. According to 
MADD's research, individuals who start drinking early in their 
teens have a greater chance of becoming alcoholics later in 
life.
    We also must continue to treat the problems that are 
leading to DUI in our cities. For example, DUI and Drug court 
programs appear to have a very positive impact on recidivism. 
The rigorous requirements with a focus on accountability and 
rehabilitation have resulted in high success rates among drug 
and DUI court graduates.
    In closing, Senator, thank you for allowing me the 
opportunity to talk to you about our local approach to DUI and 
share my perspective on this matter of great public interest. 
Public safety is of the highest priority to me as a mayor, and 
I am grateful to you for recognizing the importance of this 
issue and seeking to understand how it impacts our community.
    [The prepared statement of Mr. Berry follows:]

Prepared Statement of Hon. Richard J. Berry, Mayor, City of Albuquerque

    Chairman Rockefeller, Senator Udall, and distinguished Committee 
members, thank you for inviting me to present testimony and allowing me 
to address the important topic of driving under the influence in New 
Mexico.
    First, as the Mayor of Albuquerque, please allow me to welcome you 
to our wonderful city. We hope you have an opportunity to experience 
our unique and culturally rich community and all that it has to offer.
    The City of Albuquerque encompasses 181 square miles and includes 
both rural and metropolitan areas.
    With over 545,000 residents in the city and over 900,000 people in 
the overall metropolitan area, we are the largest city in the State of 
New Mexico.
    As Senator Udall can attest, New Mexicans are incredibly and 
justifiably proud of our heritage, history and unique culture. Like any 
other large and geographically diverse state, we have our share of 
challenges, including DUI.
    DUI is a complicated problem with no single solution. I believe 
strongly that a multi-pronged approach encompassing education, 
enforcement, adjudication, treatment and rehabilitation is the key to 
positively impacting DUI in any community, including Albuquerque.
    Preventing and combating DUI in Albuquerque is a top priority for 
our city, this administration, advocacy groups such as MADD and others 
and the Albuquerque Police Department.
    We are pleased to report fatal crashes in general have dropped from 
38 in 2008 to 32 in 2010 in Albuquerque and alcohol-related fatalities 
are on the decline recently. In 2008 there were 11 alcohol-related 
fatalities, and the number dropped slightly to 9 fatalities in 2009, 
then back up to 11 in 2010 and for the current year to date, we have 
had 3 alcohol-related fatalities. This is an encouraging recent drop 
but we must remain committed to the cause so that the trend continues. 
I have every reason to believe that officers are working hard to fight 
drunk driving in our city as DUI arrests are up by 7 percent over this 
time last year.
    I'd like to take a few minutes to share with you this 
Administration's current strategies for addressing DUI in Albuquerque.
    Within the area of enforcement, we believe checkpoints are an 
effective tool in apprehending offenders and getting them off the road. 
For 2011, arrests at sobriety checkpoints have increased by 23 percent 
as compared to this time last year.
    We maintain good working relationships with our partners in other 
local law enforcement agencies which allows for a coordinated approach 
to DUI. APD frequently conducts multi-agency sobriety checkpoints with 
the Bernalillo County Sheriff's Department and the New Mexico State 
Police.
    The Albuquerque Police Department has increased the number of DUI-
saturation patrols, and generally conducts at least one saturation 
patrol a day. Saturation patrols have proven to be a very good tool for 
combating DUI, and are often more effective than checkpoints.
    APD has increased the number of Drug Recognition Expert certified 
officers by over 20 percent so that when individuals exhibit signs of 
impairment for which alcohol has been ruled out, they can identify 
other potential legal and illicit drugs which may be the source of 
impairment.
    Our new DUI-seizure sergeant has implemented a system in 
collaboration with the City Attorney's Office to hold DUI offenders 
more accountable in seizure hearings.
    We have conducted bi-annual DUI Warrant Round Ups for offenders who 
fail to appear in court or fail to comply with conditions set by the 
court.
    As it relates to the use of emerging technologies to fight DUI, the 
Albuquerque Police Department is working with the state's Scientific 
Laboratory Division which sets regulations for the use of intoxilyzer 
machines in order to seek the capability to improve our systems. For 
example, once approved by the state lab, the department plans to 
upgrade intoxilyzer software so that breath card information is 
automatically uploaded to the District Attorney's Office by e-mail in 
preparation for prosecution. This provides greater protections for the 
chain of custody of evidence and relevant data.
    Also within the area of advancing technology, we have acquired new 
equipment to assist with DUI enforcement, such as: a new BATmobile, 
laser speed measurement devices for each DUI officer, dash and/or lapel 
cameras, portable breath testers and tint meters.
    Under the umbrella of awareness, the department has taken steps to 
highlight the problem of DUI in our community with the intent to 
encourage people to make better choices.
    APD has utilized electronic billboards to advertise DUI-seizure 
auctions and advise the public on the consequences of DUI. They submit 
DUI arrest information to the local newspaper which regularly features 
the mug shots of individuals who have been recently arrested for DUI.
    APD has expanded efforts to include a public awareness and 
education campaign. The traffic division has increased the number of 
community functions their officers attend to include presentations at 
schools and businesses to educate about the dangers of drinking and 
driving.
    The department works in close collaboration with the local Mothers 
Against Drunk Drivers' organization. Representatives of MADD attend 
checkpoints, assist in group presentations, and coordinate the Victim 
Impact Panel, a very powerful tool to show offenders the very real and 
negative consequences of drinking and driving.
    Our traffic division lieutenant has instituted a program with an 
emphasis on accountability for officers and supervisors working DUI 
grant overtime. This has resulted in an increase in the number of DUI 
arrests per officer hour worked.
    We plan to continue to improve our public education and awareness 
campaign and re-educate patrol officers on DUI seizures procedures.
    In general terms, I believe we are on the right track in combating 
DUI in Albuquerque and throughout New Mexico but we must remain 
vigilant.
    For the last several years, the state has had an aggressive 
marketing campaign including compelling television ads geared at 
various demographics which have been significantly impacted by DUI. The 
marketing campaign is funded by the National Highway Traffic Safety 
Administration. The ads, combined with additional funding targeted for 
high-incident counties such as Bernalillo County, have likely 
contributed to the decline in DUI fatalities in the region.
    I am encouraged by programs such as Power Talk 21, spearheaded by 
Mothers Against Drunk Drivers. This initiative attempts to reach young 
people by asking parents to talk to their kids about drinking and 
emphasizing the importance of waiting to drink until the age of 21. We 
cannot take for granted the impact that drinking at a young age has in 
terms of negative implications for potential addiction. According to 
MADD's research, individuals who start drinking early in their teens 
have a greater chance for becoming alcoholics later in life.
    We also must continue to treat the problems that are leading to DUI 
in our cities. For example, DUI and Drug Court programs appear to have 
a positive impact on recidivism. The rigorous requirements with a focus 
on accountability and rehabilitation have resulted in a high success 
rates among Drug and DUI court graduates.
    In closing, thank you for allowing me the opportunity to talk to 
you about our local approach to DUI and share my perspective on this 
matter of great public interest. Public safety is of the highest 
priority to me as a mayor, and I am grateful to you for recognizing the 
importance of this issue and seeking to understand how it impacts our 
communities.

    Senator Udall. Mayor Berry, thank you very much for that 
testimony, and thank you for all your hard work on this issue. 
And I think all of us know how important it is to our 
constituents to work with them and get them motivated on this.
    Chief Williams, great to have you here today. I was just 
down in the City of Las Cruces. It is a little bit warmer down 
there than here----
    Mr. Williams. Just a little bit.
    Senator Udall.--so I hope we cooled things off a little for 
you by inviting you up here. Please proceed with your 
testimony.

        STATEMENT OF RICHARD WILLIAMS, CHIEF OF POLICE, 
                  LAS CRUCES POLICE DEPARTMENT

    Mr. Williams. Good morning, Mr. Chairman, and thank you for 
the opportunity to provide you the law enforcement perspective 
regarding this very concerning issue.
    My name is Richard Williams, Chief of Police for the Las 
Cruces Police Department. I have been in law enforcement for 
over 20 years. I began my career with the New Mexico State 
Police, and I have been stationed in communities throughout New 
Mexico. I have witnessed rural law enforcement as well as 
metropolitan law enforcement during my career, and I have an 
intimate knowledge of the DUI problem in New Mexico.
    Let me tell you a little bit about our department. Las 
Cruces Police Department is authorized 183 commissioned 
officers, and we patrol 77 square miles of municipal boundary 
in southern New Mexico. Our community has a population of 
approximately 97,000 people according to the 2010 census 
numbers, and our officers answer anywhere between 157,000 to 
158,000 calls for service each year.
    The City of Las Cruces has its share of DWI problems as 
well as new offenders who move into and visit our community 
each year. The city is blessed to have a major university, New 
Mexico State University, and is surrounded by three military 
installations: White Sands Missile Range, Fort Bliss Army 
Installation, and Holloman Air Force Base in Alamogordo.
    We have numerous dairies, farms, and ranches that surround 
our municipality.
    There is no shortage of new offenders as we have a 
revolving population that lives and works in our community. 
Approximately 75 percent of our arrests involve first-time 
offenders.
    In research and the statistics surrounding this topic, I 
found that the Las Cruces Police Department, on average, 
apprehends 522 DWI offenders each year. The Sheriff's 
Department apprehends a similar amount, and the State Police 
apprehend close to 400 DWI offenders each year.
    Law enforcement in Dona Ana County apprehends anywhere 
between 1,300 and 1,600 DWI offenders each year. In the City of 
Las Cruces, we investigate on average 4 fatal crashes each 
year, and for the last 2 years, half of these crashes have 
involved alcohol.
    The advances in vehicle safety and technology can only do 
so much when an impaired person decides to drive drunk.
    In law enforcement, we are at the front of the efforts to 
stop DWI offenders. When all other efforts do not stop an 
offender from driving drunk, we rely on our officers to 
physically stop these offenders and remove them from our 
streets.
    There are several things that law enforcement has done 
extremely well as we work to enhance public and traffic safety. 
Many agencies have made the apprehension and criminal 
prosecution of offenders a significant priority for their 
agencies, and have included these efforts in their strategic 
plan, goals, and strategies.
    Many agencies seek out grant funding to augment normal 
patrol efforts to apprehend these DWI offenders through 
operations such as DWI checkpoints, directed patrols, and 
saturation patrols.
    Some jurisdictions have implemented a vehicle seizure 
program to stop repeat offenders and target those who are 
arrested for driving with a revoked license as a result of a 
DWI. Last year, the City of Las Cruces seized 348 vehicles that 
were either driven by a repeat drunk driver or one of those 
individuals who was driving with a revoked license as a result 
of DWI.
    Many agencies also participate in awareness campaigns, such 
as the 100 Days and Nights of Summer campaign, driver education 
programs, or other various programs that are designed to 
increase awareness regarding the problems associated with this 
crime.
    There are still many challenges, though, that law 
enforcement faces as we strive to prosecute--to apprehend and 
prosecute these offenders. To begin with, there are 
difficulties the average officer has in identifying a drug-
impaired driver as compared to an alcohol-impaired driver. 
There is also an enormous amount of paperwork that is 
associated with the arrest of a DWI offender. This large amount 
of paperwork ties up an officer for anywhere between 1 to 3 
hours for a single arrest during their shift. That takes the 
officer out of service, and they are no longer available to 
assist in our community. And I can assure you, our call volume 
is ever increasing, and these lengthy investigations are taking 
time away from proactive patrols and visibility.
    Officers are also facing an ever increasing difficult court 
battle, and the traditional standard of proof beyond a 
reasonable doubt is evolving into proof beyond all doubt. In 
addition, the administrative revocation hearings have some 
areas that have been turned into discovery hearings or mini-
trials, and they go well beyond the scope of the license 
revocation. Also, challenges to our sobriety testing methods 
have caused officers to limit their testimony regarding 
horizontal gaze nystagmus.
    And finally, the budget. Budget constraints have limited 
resources and are impacting our ability to proactively search 
for impaired drivers as we strive to answer the basic calls for 
service.
    So, DWI will remain a priority for law enforcement as the 
number of offenders will never completely diminish. We have 
seen a reduction in the number of DWI arrests, and it is our 
hope that the message is getting through to our citizens, and 
make sure they understand that it is no longer socially 
acceptable to drive drunk in New Mexico.
    Law enforcement will continue to place significant emphasis 
on traffic safety and the apprehension of impaired drivers. We 
must create a perception of risk so that offenders weigh the 
costs and risks associated with driving impaired.
    While we have come a long way, the problem still exists. We 
must make the enforcement of DWI laws a priority, and law 
enforcement has a huge role in securing our communities.
    Thank you, sir, for the opportunity, and I will stand for 
any questions.
    [The prepared statement of Mr. Williams follows:]

       Prepared Statement of Richard Williams, Chief of Police, 
                      Las Cruces Police Department

Introduction
    Good morning. My name is Richard Williams and I am the Chief of 
Police for the Las Cruces Police Department. I have been a law 
enforcement officer for (20) twenty years. I began my career with the 
New Mexico State Police and I have been stationed in many communities 
throughout New Mexico. I have witnessed rural law enforcement and 
metropolitan law enforcement during my career and I have intimate 
knowledge of the DWI problem in New Mexico.
    The Las Cruces Police Department is authorized (183) one hundred 
and eighty-three commissioned officers and we patrol (77) seventy seven 
square miles of municipal boundary in southern New Mexico. Our 
community has a population of approximately (97,000) ninety seven 
thousand people, according to the 2010 census numbers and our officers 
answered (158,000) one hundred and fifty eight thousand calls for 
service in 2010.

Nature of the Problem
    The City of Las Cruces has its share of DWI problems and new 
offenders who move into or visit our community each year. Our city is 
blessed to have a major university (New Mexico State University), and 
is surrounded by (3) three military installations (White Sands Missile 
Range, Fort Bliss Army Installation, and Holloman Air Force Base). We 
also have numerous dairies, farms and ranches that surround our 
municipality. There is no shortage of new offenders as we have a 
revolving population that lives and works in our community. 
Approximately (75 percent) seventy-five percent of our arrests involve 
first time offenders.
    In researching the statistics surrounding this topic, I found that 
the Las Cruces Police Department on average apprehends approximately 
(522) five hundred twenty-two DWI offenders each year. The Sheriff's 
Department apprehends a similar amount and the New Mexico State Police 
arrests close to (400) four hundred DWI offenders. Law enforcement in 
Dona Ana County apprehends between (1,300-1,600) one thousand three 
hundred and one thousand six hundred DWI offenders each year. We also 
investigate on average (4) four fatal crashes in the City of Las Cruces 
each year with half of these crashes involving alcohol. The advances in 
vehicle safety and technology can only do so much when an impaired 
person decides to drive drunk.

Law Enforcement's Perspective
    Law enforcement is at the front in the efforts to stop DWI 
offenders. When all other efforts do not stop an offender from driving 
drunk, we rely on our officers to physically stop these offenders and 
remove them from our streets.
    There are several things law enforcement has done extremely well at 
as we work to enhance public and traffic safety.

  <bullet> Many agencies have made the apprehension and criminal 
        prosecution of offenders as a significant priority for their 
        agencies and have included these efforts in their strategic 
        plan, goals, and strategies.

  <bullet> Many agencies seek grant funding to augment normal patrol 
        efforts to apprehend DWI offenders through operations such as 
        DWI Checkpoints, Directed Patrols, and Saturation Patrols.

  <bullet> Some jurisdictions have implemented a vehicle seizure 
        program to stop repeat offenders and to target those who are 
        arrested for Driving with a Revoked Drivers License.

    <ctr-circle> Last year we seized (348) three hundred forty-eight 
            vehicles that were either driven by repeat drunk drivers or 
            those with a revoked license.

  <bullet> Many agencies participate in education and awareness 
        campaigns such as the 100 Days and Nights of Summer campaign, 
        driver's education programs, and various other programs 
        designed to increase the awareness of the problems associated 
        with this crime.

    There are still many challenges that law enforcement faces as we 
strive to apprehend and prosecute these offenders.

  <bullet> The difficulties the average officer has in identifying drug 
        impaired driving as compared to alcohol impaired driving.

  <bullet> There is an enormous amount of paperwork associated with the 
        arrest of a DWI offender. This large amount of paperwork ties 
        up an officer for (1 to 3) one to three hours during a shift 
        for a single arrest and takes the officer out of service to our 
        community.

    <ctr-circle> Our call volume is ever increasing and these lengthy 
            investigations are taking away from time spent on traffic 
            patrol or proactive patrol.

  <bullet> Officers are facing ever increasing difficult court battles 
        and the traditional standard of proof beyond a reasonable doubt 
        is now evolving into proof beyond all doubt.

  <bullet> Administrative revocation hearings have in some areas been 
        turned into discovery hearings that go well beyond the scope of 
        the license revocations.

  <bullet> Challenges to traditional sobriety testing methods have 
        caused officers to limit their testimony regarding Horizontal 
        Gaze Nystagmus.

  <bullet> Budget constraints and limited resources are also impacting 
        our ability to proactively search for impaired drivers as we 
        strive to answer calls for service.

Future Considerations
    DWI enforcement will remain a priority for law enforcement as the 
number offenders will never completely diminish. We have seen a 
reduction in the number of arrests for DWI and it is our hope that the 
message is getting through to our citizens that it is no longer 
socially acceptable to drive drunk.
    Law enforcement will continue to place a significant emphasis on 
traffic safety and the apprehension of impaired drivers. We must create 
a perception of risk so that offenders weigh the costs and risks 
associated with driving impaired. While we have come a long way the 
problem still exists. We must make the enforcement of DWI laws a 
priority and law enforcement has a huge role in securing our 
communities.
    Thank you and I'll stand for questions.

    Senator Udall. Thank you, Chief Williams.
    And, Lora Lee Ortiz, and you are with MADD. You are the 
Executive Director. Please proceed.

   STATEMENT OF LORA LEE ORTIZ, EXECUTIVE DIRECTOR, MADD NEW 
                             MEXICO

    Ms. Ortiz. Thank you. On behalf of MADD, I thank Chairman 
Rockefeller and Ranking Member Hutchison, for the opportunity 
to submit testimony before the Committee, and for holding this 
important hearing. I thank Senator Tom Udall, who has been a 
steadfast supporter of MADD's efforts to eliminate drunk 
driving. Many of New Mexico's successes today are due to his 
efforts while serving as Attorney General of New Mexico, and 
his leadership on drunk driving is to be commended. His efforts 
have saved lives.
    I also thank the Committee for introducing Mariah's Act, 
the Motor Vehicle and Highway Safety Improvement Act of 2011. 
This legislation represents a dramatic step forward in the 
effort to save lives on our Nation's highways. From MADD's 
perspective, this committee's bill will put into motion 
critical initiatives to literally eliminate drunk driving in 
the United States.
    Specifically, I call attention to the authorization of the 
Driver Alcohol Detection System for Safety, or DADSS program, 
also known as the ROADS SAFE Act, a bipartisan bill introduced 
by Senators Udall and Corker. In the House, Representatives 
Moore, Capito, Shuler, and Sarbanes have introduced identical 
legislation.
    DADSS is a program to provide an advanced in-vehicle option 
for consumers. This technology could potentially eliminate 
drunk driving and is a result of a research agreement between 
NHTSA and many of the world's leading auto manufacturers.
    The purpose of this ambitious program is to research, 
develop, and demonstrate non-invasive, in-vehicle alcohol 
detection technologies that can very quickly and accurately 
measure a driver's BAC. The Insurance Institute for Highway 
Safety estimates that 8,000 lives could be saved if the 
technology is widely deployed in the United States.
    Just a few years ago, New Mexico was rated as one of the 10 
worst States for drunk driving fatalities. Thanks to the 
leadership of people like Senator Udall, New Mexico has turned 
a corner. We are proud of our success on the front line in the 
fight against drunk driving. However, we must not become 
complacent in our efforts. The following should outrage all of 
us.
    In 2009 alone, still over 100 people were killed in New 
Mexico because of drunk driving, representing 32 percent of all 
highway fatalities. Drunk driving costs $570 million per year. 
Nationwide, over 10,000 people died in 2009 due to a drunk 
driver. Over 350,000 people were injured last year in drunk 
driver crashes. Fifty to 75 percent of convicted drunk drivers 
will continue to drive on a suspended license, and drunk 
driving costs our Nation $129 billion every year.
    In 2006, following research approving countermeasures, MADD 
announced its campaign to eliminate drunk driving, which 
supports more resources for high visibility law enforcement, 
requires convicted drunk drivers to install an ignition 
interlock device, and turns cars into the cure through the 
development of advanced in-vehicle technology.
    The centerpiece of New Mexico's efforts has been to make 
sure every convicted drunk driver receives an ignition 
interlock, which works like a breathalyzer attached to a 
vehicle's ignition system, allowing a DWI offender to continue 
to drive. They just cannot drive drunk.
    The research on interlocks is crystal clear and 
irrefutable. In fact, the Center for Disease Control recently 
endorsed requiring interlocks for all convicted DWI offenders. 
In 2005, New Mexico was the first State to implement this 
requirement. The downward trend in fatalities began and has 
continued through today.
    We strongly urge this committee to work with the EPW 
Committee to develop a strategy to encourage every State to 
adopt an all-offender interlock law as part of the 
reauthorization bill.
    Another component of New Mexico's success was the 
establishment of a Statewide DWI Coordinator. Mr. Chairman, as 
you know, DWI is a very complex issue. While State murder codes 
are typically one page long, State DWI codes can run hundreds 
of pages. What is more, you have many different agencies 
working to stop drunk driving, but they may not be 
communicating with each other effectively.
    Providing one central point of contact allows government 
agencies, community advocates, like MADD, and the public one 
office to contact. We applaud the Committee's efforts to 
include the establishment of a DWI Coordinator for high-risk 
states.
    MADD would also like to commend the Committee for including 
paid ads, such as ``Driver Sober or Get Pulled Over,'' focused 
on drunk driving. In New Mexico, we take high visibility law 
enforcement seriously, and from June through September, we hold 
100 Days and Nights of Summer, where we strive to conduct 100 
sobriety checkpoints. Summer is one of the most dangerous times 
on the road, and conducting sobriety checkpoints, along with 
advertisements announcing these events, educates drivers. If 
they choose to drink and drive, they will get caught.
    New Mexico has been at the forefront in the fight against 
DWI. Ignition interlocks play a major role in our 36 percent 
reduction in DWI fatalities, as did conducting numerous 
sobriety checkpoints so that drunk drivers do know if they 
drive drunk, they will get caught.
    Finally, the appointment of a coordinator helped New Mexico 
focus its efforts and improve the State's efficiency in 
fighting DWI.
    MADD applauds this committee's leadership to eliminate 
drunk driving, and specifically thanks the Committee for 
including several important provisions. We would like to 
acknowledge Section 109, High Visibility Enforcement Program; 
Section 107(g), grants to States that adopt and enforce 
mandatory alcohol ignition interlock laws; Section 11, Driver 
Alcohol Detection System for Safety research; Section 102, 
inclusion of performance measure development and additional 
oversight to the Secretary of Transportation to ensure that 
States spend funds on activities that will save the most lives 
and prevent the most injuries.
    Thank you for holding this important hearing to advance our 
Nation's highway safety program. This committee is to be 
commended for their leadership on these issues. Thank you.
    [The prepared statement of Ms. Ortiz follows:]

       Prepared Statement of Lora Lee Ortiz, Executive Director, 
                            MADD New Mexico

    On behalf of Mothers Against Drunk Driving (MADD) and MADD New 
Mexico, I would like to thank Chairman Rockefeller and Ranking Member 
Hutchison for the opportunity to submit testimony before the Committee 
and for holding this important hearing. I would also like to thank 
Senator Tom Udall who has been a steadfast supporter of MADD's efforts 
to eliminate drunk driving. Many of New Mexico's successes today are 
due to Senator Udall's efforts while serving as Attorney General of New 
Mexico and his leadership on drunk driving is to be commended. His 
efforts have helped to save many lives.
    I would also like to thank the Committee for recently introducing 
Mariah's Act, or the Motor Vehicle and Highway Safety Improvement Act 
of 2011 legislation. This legislation, which would reauthorize the 
Nation's highway and vehicle safety programs, represents a dramatic 
step forward in the effort to save lives on our Nation's highways. From 
MADD's perspective, this committee's bill will put into motion critical 
initiatives to literally eliminate drunk driving in New Mexico and in 
the United States.
    Specifically, I would like to call attention to the authorization 
of the Driver Alcohol Detection System for Safety, or DADSS program 
contained in Mariah's Act. The provision is also known as the ROADS 
SAFE Act, a bipartisan bill introduced by Senator Udall and Senator Bob 
Corker. In the House, Representatives Shelley Moore Capito, Heath 
Shuler, and John Sarbanes have introduced identical legislation.
    DADSS is a program currently underway to provide an advanced in-
vehicle option for consumers. This technology could potentially 
eliminate drunk driving. DADSS is the result of a research agreement 
between NHTSA and many of the world's leading auto manufacturers.
    The purpose of this ambitious program is to research, develop, and 
demonstrate non-invasive in-vehicle alcohol detection technologies that 
can very quickly and accurately measure a driver's BAC. The Insurance 
Institute for Highway Safety estimates that 8,000 lives could be saved 
if the technology is widely deployed in the U.S.
New Mexico and National Statistics
    Just a few years ago, New Mexico was rated as one of the ten worst 
states in the Nation for drunk driving fatalities. Thanks to the 
leadership of people like Senator Udall, former Governor Bill 
Richardson, and his creation of a statewide DWI Czar to coordinate DUI 
efforts, New Mexico has truly turned a corner.
    In New Mexico we are proud of our success, but realize much more 
must be done. New Mexico has been on the front line in the fight 
against drunk driving. However, we must not be complacent in our 
efforts. The following should outrage us all:

  <bullet> In 2009 alone, 114 people were killed in New Mexico because 
        of drunk driving.

  <bullet> This represents 32 percent of all highway fatalities.

  <bullet> Drunk driving costs New Mexico $570 million per year.

  <bullet> Nationwide, 10,839 people died in 2009 due to a drunk 
        driver.

  <bullet> Over 350,000 people were injured last year in drunk driving 
        crashes.

  <bullet> 50-75 percent of convicted drunk drivers will continue to 
        drive on a suspended license.

  <bullet> Drunk driving costs our Nation $129 billion per year.

Campaign to Eliminate Drunk Driving
    Fortunately, MADD has a plan for the Nation. In 2006, following 
research of proven countermeasures, MADD announced its Campaign to 
Eliminate Drunk Driving which:

  <bullet> First, supports more resources for high-visibility law 
        enforcement;

  <bullet> Second, requires convicted drunk drivers to install an 
        ignition interlock device; and,

  <bullet> Lastly, turns cars into the cure through the development of 
        advanced in-vehicle technology.

Ignition Interlocks in New Mexico
    One major prong of MADD's Campaign was chosen as a result of our 
success in New Mexico. The centerpiece of New Mexico's efforts has been 
to make sure every convicted drunk driver receives an ignition 
interlock. The device works like a breathalyzer and is attached to the 
vehicle's ignition system. The interlock allows a DWI offender to 
continue to drive wherever they need to go--they just can't drive 
drunk.
    The research on interlocks is crystal clear and irrefutable. In 
fact, the Centers for Disease Control recently endorsed requiring 
interlocks for all convicted DWI offenders. New Mexico was the first 
state to implement this requirement. In 2005 ignition interlocks for 
all offenders were mandated. The downward trend in fatalities began and 
has continued through today. Fatalities decreased from over 500 per 
year to 139 in 2010. This year's trends indicate continued increases in 
the number of interlocks for all convicted DWI offenders and, as a 
result, our DWI fatalities have been reduced by in by 36 percent.
    MADD believes that New Mexico's success could be replicated 
nationwide and that incentives for states are an important step toward 
making this a reality. While MADD has been successful in New Mexico and 
several other states, we are now hitting roadblocks from the alcohol 
industry and DWI defense attorneys as we try to pass this law in other 
state legislatures.
    We strongly urge this committee to work with the Senate Environment 
and Public Works (EPW) Committee to develop a strategy to encourage 
every state to adopt an all-offender interlock law as part of the 
reauthorization bill.
    Under this committee's jurisdiction, incentives could be offered to 
states which enact an all-offender interlock law in the first half of 
the life of the new Federal law, and under the Environment and Public 
Works (EPW) Committee's jurisdiction, an all-offender interlock Federal 
standard could be included for the second half of the life of the law. 
This lifesaving measure is sound policy.

DUI Czar
    Another critical component of New Mexico's success was the 
establishment of a statewide DUI coordinator, or DWI Czar, to insure 
that state and local agencies were focused and coordinating their 
efforts to maximize efforts to stop drunk driving.
    Mr. Chairman, as you know, DWI is a very complex issue. While state 
murder codes are typically one page long, state DWI codes can run 
hundreds of pages. What's more, you have many different agencies 
working to stop drunk driving but they may not be communicating with 
each other. For example, prosecutors need to talk with probation who 
must communicate with law enforcement. The DMV is responsible for 
licensing these drivers and lawmakers must constantly improve DWI laws 
to protect the public.
    All of these different groups need coordination and providing one 
central point of contact is critical because it allows government 
agencies, community advocates like MADD, and the public one office to 
turn to for questions about DWI, and action to end it. We applaud the 
Committee's efforts to include the establishment of a DWI Czar in 
Mariah's Act for high-risk states. We would like to see every state 
establish this important office. Recently it was decided that New 
Mexico's DWI Czar would no longer continue. MADD hopes that this 
important position is reinstated. Although we have made great progress 
in the state, we must not become complacent.

High Visibility Enforcement
    MADD would also like to commend the Committee for including at 
least three paid ad crackdowns in Mariah's Act. This includes two 
crackdowns, now known as Drive Sober or Get Pulled Over, focused on 
drunk driving. New Mexico, through the DWI Czar, has also made a 
commitment to high visibility law enforcement.
    In New Mexico, we take high visibility enforcement seriously and 
from June through September we have what is called 100 Days and Nights 
of Summer where we strive to conduct 100 sobriety checkpoints. Summer 
is one of the most dangerous times on the road and conducting sobriety 
checkpoints, along with paid advertisements or earned media announcing 
these events, teaches drivers that if they choose to drink and drive, 
they will get caught.

Conclusion
    New Mexico has been at the forefront in the fight against DWI. Our 
focus on ignition interlocks has played a major role in our 36 percent 
reduction in DWI fatalities. In addition, we have worked to conduct 
numerous sobriety checkpoints through programs like 100 Days and Nights 
of Summer to make sure that drunk drivers know if they drive drunk, 
they will get caught. Finally, the appointment of a DWI Czar helped New 
Mexico to coordinate its efforts and improve the state's efficiency in 
fighting DWI.
    MADD applauds this committee's leadership to eliminate drunk 
driving and specifically thanks the Committee for including several 
important provisions Mariah's Act. Specifically, we would like to 
acknowledge:

  <bullet> Section 109--High Visibility Enforcement Program, with at 
        least three national crackdown periods;

  <bullet> Section 107(g)--Grants to States That Adopt and Enforce 
        Mandatory Alcohol-Ignition Interlock Laws;

  <bullet> Section 111--Driver Alcohol Detection System for Safety 
        Research;

  <bullet> Section 102--Inclusion of performance measure development 
        and additional oversight authority to the Secretary of 
        Transportation to ensure states spend funds on activities that 
        will save the most lives and prevent the most injuries.

    Thank you for holding this important hearing to advance our 
Nation's highway and highway safety programs. You are to be commended 
for your leadership on these issues.

    Senator Udall. Thank you, Ms. Ortiz.
    Dr. Crandall, please proceed.

        STATEMENT OF CAMERON CRANDALL, M.D., EMERGENCY 
PHYSICIAN AND ASSOCIATE PROFESSOR AND VICE CHAIR FOR RESEARCH, 
   DEPARTMENT OF EMERGENCY MEDICINE, UNIVERSITY OF NEW MEXICO

    Dr. Crandall. Mr. Chair, I want to thank you for the 
opportunity to provide testimony on New Mexico's experience 
with alcohol-related motor vehicle crashes.
    My name is Dr. Cameron Crandall. I am an emergency 
physician and an Associate Professor and Vice Chair for 
Research in the Department of Emergency Medicine at the 
University of New Mexico. In addition to practicing emergency 
medicine, I have a long-standing interest and background in 
injury prevention.
    I work at University Hospital in Albuquerque, which is the 
only Level 1 Trauma Center in New Mexico, and as such, we treat 
a higher proportion of alcohol-related trauma compared to other 
New Mexico hospitals. As an emergency physician, I see 
firsthand the tragic consequences of impaired driving, which 
includes significant suffering, short- and long-term 
disability, and, in too many cases, death.
    Nationally, we know that there is about 1 death every 45 
minutes due to a drunk driving crash, or around 30 to 32 deaths 
per day. In 2008, there were almost 12,000 people killed in 
alcohol-related crashes in the United States. In the same year 
in New Mexico, there were 143 alcohol-related crash deaths.
    This is, however, only a portion of the problem. There were 
more than 10 times as many individuals, over 1,700 persons, who 
experienced an injury from an alcohol-related crash.
    It is important to recognize the contribution that even 
small amounts of alcohol have in causing impairment. Any level 
of alcohol in a person's body will reduce attention, task 
completion, peripheral vision, and reaction times. Impairment 
begins as soon as alcohol can be detected in the blood, and all 
of these factors add up to an increased risk of injury and 
death.
    In New Mexico, 39 percent of fatal crashes involved 
alcohol. In a recent report, among crashes involving injuries 
but no deaths, only 8 percent involved alcohol. What this means 
is that the presence of alcohol increases the likelihood that 
the crash will be fatal.
    There are significant economic costs associated with 
alcohol-related crashes, and each alcohol-related motor vehicle 
crash fatality costs over $3 million with over $1 million in 
direct costs, and over $2 million in lost earning potential and 
lost quality of life. In New Mexico, we estimate that all of 
the alcohol-related crashes in 2008 had a combined impact of 
almost $1 billion in both direct and indirect costs. And on a 
per capita basis, this would translate to $466 for every person 
in New Mexico.
    Another important consideration is that alcohol-related 
crashes involve both intoxicated and sober individuals. As 
such, everyone is only one step away from a potentially life-
changing experience. Estimates are that about 30 percent of 
Americans will be involved in an alcohol-related crash at some 
time in their lives. This does not mean that the individuals 
themselves will be drinking; in fact, many of these individuals 
will not be drunk; they will simply be injured or killed by 
someone who is.
    In New Mexico, about 36 percent of our victims involved in 
alcohol-related crashes are sober. Over recent years, we have 
seen tremendous improvements in the reduction of alcohol-
related motor vehicle injury crashes and deaths. And alcohol-
related motor vehicle crash fatality rates in New Mexico have 
dropped significantly from a rate of around 11.9 per 100,000 
persons in 2002 to 7.2 per 100,000 in 2008, representing a 39 
percent reduction.
    A number of potential factors help explain this reduction 
in New Mexico, and these include, number one, public education 
efforts, such as the ``You Drink, You Drive, You Lose'' media 
campaign; number two, innovative engineering solutions, such as 
the ignition interlock devices; three, active law enforcement 
programs, such as the 100 Days and Nights of Summer with its 
``Superblitzes,'' DWI checkpoints and saturation patrols; and 
finally, number four, legislative efforts to curb drinking and 
driving, such as closure of drive-up liquor store windows and 
regulatory efforts, such as the ``three strikes'' law for 
rescinding liquor licenses authorized under the Liquor Control 
Act.
    We must continue these efforts and look for new and 
innovative strategies to further reduce drunk driving, and the 
ROADS SAFE Act that you have co-sponsored will support the 
development of passive in-vehicle alcohol detection systems is 
one such innovative strategy. And I am pleased to offer that 
the American College of Emergency Physicians, our national 
agency, supports this legislation, and I have a letter of 
support by the College president to include in the record.
    Senator Udall. That will be included without objection. 
Thank you.
    [The information referred to follows:]

                   American College of Emergency Physicians
                                     Washington, DC, August 9, 2011
Hon. Tom Udall,
U.S. Senate,
Washington, DC.

Dear Senator Udall:

    On behalf of the American College of Emergency Physicians (ACEP), 
our 29,000 members and the nearly 124 million patients we treat every 
year, we want to express our support for your legislation, the 
``Research of Alcohol Detection Systems for Stopping Alcohol-related 
Fatalities Everywhere (ROADS SAFE) Act of 2011'' (S. 510).
    As emergency physicians, we witness first-hand the consequences of 
impaired driving and the toll it takes on families, communities and the 
Nation. It is a tragedy that someone in this country dies every 45 
minutes from an alcohol-related crash and, even worse; it is a tragedy 
that is preventable.
    The ROADS SAFE Act would authorize $60 million over 5 years for the 
Driver Alcohol Detection System for Safety (DADSS) program. DADSS was 
created as a joint, public-private venture between the National Highway 
Traffic Safety Administration (NHTSA) and the Automotive Coalition for 
Traffic Safety (ACTS), which is comprised of the world's leading auto 
manufacturers, to explore the feasibility, potential benefits and 
public policy challenges associated with using in-vehicle technology to 
prevent drunk driving.
    ACEP is optimistic that the research being conducted by DADSS will 
develop the solutions, such as devices to determine a driver's blood 
alcohol level by simply touching the steering wheel or engine ignition, 
which will help prevent the thousands of drunk driving fatalities 
nationwide each year.
    Thank you for conducting this field hearing to examine the critical 
issue of drunk driving and we hope that it will encourage public 
support for the passage of the ROADS SAFE bill.
    We look forward to working with you to enact this important 
legislation so that we don't have to tell even one more family that 
their loved one was killed by a drunk driver.
            Sincerely,
                               Sandra Schneider, MD, FACEP,
                                                         President.
CC: Senator Bob Corker

    Dr. Crandall. New Mexico's commitment to reducing drunk 
driving has been effective, but more work does need to be done, 
and no one effort is sufficient. It has been the combined 
effort of many strategies that will continue to reduce the 
impact of drunk driving in New Mexico.
    I want to thank you for letting me offer my testimony, and 
I would be pleased to answer any questions.
    [The prepared statement of Dr. Crandall follows:]

 Prepared Statement of Cameron Crandall, M.D., Emergency Physician and 
    Associate Professor and Vice Chair for Research, Department of 
              Emergency Medicine, University of New Mexico

    Mr. Chair, Senator Udall and other Honorable Members of the 
Committee:

    I would like to thank you for this opportunity to provide testimony 
on New Mexico's experience with alcohol related motor vehicle crashes.
    My name is Dr. Cameron Crandall. I am an emergency physician and an 
Associate Professor and Vice Chair for Research in the Department of 
Emergency Medicine at the University of New Mexico. In addition to 
practicing emergency medicine, I have a long-standing interest and 
background in injury prevention.
    I work at University Hospital in Albuquerque, which is the only 
Level 1 Trauma Center in New Mexico and, as such, we treat a higher 
proportion of alcohol-related trauma compared to other New Mexico 
hospitals. As an emergency physician, I see firsthand the tragic 
consequences of impaired driving which includes significant suffering, 
short and long-term disability, and in too many cases, death.
    Nationally, we know that there is 1 death every 45 minutes due to a 
drunk driving crash, or 32 deaths per day. In 2008, there were almost 
12,000 people killed in alcohol-related crashes. In the same year in 
New Mexico, there were 143 alcohol-related crash deaths. This is, 
however, only a portion of the problem. There were more than 10 times 
as many individuals, over 1,700 persons who experienced an injury from 
an alcohol-related crash.
    It is important to recognize the contribution that even small 
amounts of alcohol have in causing impairment. Any level of alcohol in 
a person's body will reduce attention, task completion, peripheral 
vision, and reaction times. Impairment begins as soon as alcohol can be 
detected in the blood. All of these factors add up to an increased risk 
of injury and death.
    In New Mexico, 39 percent of all fatal crashes involved alcohol. 
Among crashes involving injuries but no deaths, only 8 percent involved 
alcohol. What this means is that the presence of alcohol increases the 
likelihood that the crash will be fatal.
    There are significant economic costs associated with an alcohol-
related crash. Each alcohol-related motor vehicle crash fatality costs 
over $3 million, with over $1 million in direct costs and over $2 
million in lost earning potential and quality of life. In New Mexico, 
we estimate that all of the alcohol-related crashes in 2008 combined 
had an impact of almost $1 billion in both direct and indirect costs. 
On a per capita basis, this translates to $466 for every person in New 
Mexico.
    Another important consideration is that alcohol-related crashes 
involve both intoxicated and sober individuals. As such, everyone is 
only one step away from a potential life-changing experience. Estimates 
are that 30 percent of Americans will be involved in an alcohol-related 
crash at some time in their lives. This does not mean that these 
individuals themselves will be drinking; in fact, many of these 
individuals will not be drunk; they may simply be injured or killed by 
someone who is. In New Mexico, 36 percent of our victims involved in 
alcohol-related crashes are sober.
    Over recent years, we have seen tremendous improvements and 
reduction in alcohol-related motor vehicle crash injury and death. 
Alcohol-related motor vehicle crash fatality rates in New Mexico have 
dropped significantly, from a rate of 11.9 per 100,000 persons in 2002 
to 7.2 per 100,000 in 2008, a 39 percent reduction.
    A number of potential factors help explain this reduction in New 
Mexico, these include:

        1. public education efforts such as the ``You drink, You drive, 
        You lose'' media campaign,

        2. innovative engineering solutions such as ignition interlock 
        devices,

        3. active law enforcement programs, such as the ``100 Days and 
        Nights of Summer'' with ``Superblitzes,'' DWI checkpoints and 
        saturation patrols; and

        4. legislative efforts to curb drinking and driving, such as 
        closure of drive-up liquor store windows.

    We must continue these efforts and look for new and innovative 
strategies to further reduce drunk driving. The ROADS SAFE Act (S. 510) 
co-sponsored by Sen. Tom Udall, which will support the development of 
passive in-vehicle alcohol detection systems is one such innovative 
strategy. The American College of Emergency Physicians supports this 
legislation and I would like to include a letter of support by the 
College president in support.
    New Mexico's commitment to reduce drunk driving has been effective, 
but more work must be done. No one effort is sufficient. It is the 
combination of many strategies that will continue to reduce the impact 
of drunk driving in New Mexico.

    Senator Udall. OK, thank you very much, Dr. Crandall. And I 
know the kind of devastation you must see every day with 
victims coming into the emergency room. And I am going to ask 
you about that in a little bit.
    But I have the--my first question is for the whole panel, 
and it really deals with the issue of the repeat, the chronic, 
the habitual offenders that we know are a big part of the 
problem. And all of your testimony highlights how far we have 
come as a State in addressing drunk driving and saving lives.
    Unfortunately, though, I still read far too often in the 
paper and see on the news stories of the lives lost. And one of 
the frustrating elements of these stories is how many lives 
have been lost to habitual offenders. And we kind of see that 
over and over again. Sometimes these folks have been involved 
six times, seven times, nine times. I think recently here we 
saw even more times than that.
    And what I would like to know is what each of your thoughts 
are on what needs to be done to address chronic, habitual 
offenders. Is the--and even with an interlock license, many 
drivers are still able to offend. Is there something we can do 
there? Do you believe that the passive in-vehicle alcohol 
detection system could help address the chronic offender issue?
    Mayor, do you want to----
    Mr. Berry. Sure. Mr. Chairman--Senator, we always go back 
it seems to when I was in the legislature as well. The 
discussion oftentimes comes down to the big five, you know, 
education, enforcement, adjudication, treatment, and 
rehabilitation. We see far too often people--repeat offenders 
of DUI in the State of New Mexico.
    I think there are a number of things we can work on from 
the adjudication standpoint--mandatory jail time, tougher 
penalties, making it the situation where if you have proven 
time and time again that you are a person who is willing to get 
behind the wheel of a vehicle intoxicated, at some point there 
has to be a price to pay for that--that is extreme in my 
opinion.
    We look at the judicial system, and we are currently 
working with the--in the City of Albuquerque with the judiciary 
here locally and with our fire departments and our police 
department and the folks in the county to try to work on ways 
that we can collaborate to combat this. Streamlining the 
judicial system in certain ways, giving judges the tools in 
their toolbox to be able to make more positive impact.
    New Mexico currently has a--the law in New Mexico, it is a 
felony after three convictions. Well, maybe we should look at 
making it a felony after two convictions. Currently, it is a 
DWI seizure after your--I believe it is your second offense. 
Maybe we should start looking at that on some first offense 
basis. I mean, there are just lot of things that we can do.
    If we work with our friends in the legislature, at State 
government, with Governor Martinez, and really come up with 
ways to make it less attractive in the first place in the 
education standpoint, but also make the penalties on the back 
side of the equation tougher, I think could be meaningful.
    Senator Udall. Thanks, Mayor.
    Chief?
    Mr. Williams. Mr. Chairman, a couple of things that come to 
mind in regard to this issue are, some of these individuals who 
are repeat offenders, they are going to continue to offend or 
continue to drive drunk, if you will, unless we physically stop 
them. And so, that is where my thoughts come behind, we need to 
be very cognizant at the Federal, State, and local level to 
ensure that we do not remove the element of enforcement in 
regard to our fight against DWI.
    Some of these individuals, we have seen them time and time 
again. I arrested an individual several years back. He had 11 
DWIs, and 12 did not matter. Thirteen would not have mattered 
to this individual. The only thing that would have stopped this 
individual is for the individual to be placed in jail, in 
custody, incarcerated.
    And so, yes, I would agree with the Mayor that we are doing 
a lot of things that are very innovative here. I think as a 
State, we have not lacked innovation or creativity in any of 
these types of technologies, programs, funding, and so on and 
so forth. But at the end of the day, if there is an individual 
who decides to drive drunk, that individual has to be stopped, 
and that is where it stops--with the law enforcement officer.
    So, I would like to see that those people that are 
continuously repeat offenders, that they are incarcerated and 
that they are removed, because they are far too dangerous to 
share the same roads that you and I and our families and 
everyone in this audience and this community share. And they 
need to be incarcerated.
    Senator Udall. Thank you, Chief.
    Ms. Ortiz. Mr. Chairman, I believe there has to be a 
completely comprehensive approach. All of the things that we 
have put in the toolbox, all those tools that have gone in 
there have been more effective in reducing fatalities. And I 
think that we always have to remember we want to keep our drunk 
drivers off the road, but we want to make sure that we reduce 
fatalities and injuries here in the State. And that 
comprehensive approach is going to be so important.
    We believe interlocks is such an important piece to that, 
but it also comes to the seizures. You cannot prevent a 
person--if a person has the ability to sign a waiver or some 
kind of paper that they are not going to do that, that they 
will not drive. We just do not believe that happens. We believe 
that 50 to 75 percent of people still drive. So, we have to 
somehow take the ability away.
    And with the seizures, whether it is a second offense and 
beyond, you are then creating some disincentive for that 
person. There is a big loss there, and I think that that is a 
really important part of it.
    The judicial system, the adjudication process is so 
important. We have been very innovative here in New Mexico and 
have developed some laws that are just wonderful. If we can 
make sure that we are implementing those laws and that people 
are being held accountable, I think that is another way of 
reducing that.
    But I believe--truly believe that the DADSS program would 
address this and save lives as well. And I think that is just a 
very key and important piece to that puzzle.
    Senator Udall. Great. Thank you.
    Dr. Crandall?
    Dr. Crandall. Senator Udall, I agree with my panel members 
here that there be a comprehensive approach. And the way that I 
think about it is needing to look at engineering solutions, 
education solutions, as well as enforcement. And all three of 
these need to work in concert. And there are opportunities at 
each of these levels.
    I think that the ignition interlock provides a very unique 
opportunity to stop individuals who have been convicted of DWI. 
However, there are many ways around the system, as has been 
testified, and we need to strengthen that. And that is why I 
think the passive detection system really needs to go another 
step beyond that. If we can create systems that cannot be 
subverted, then there is a great opportunity for preventing 
individuals who are intoxicated from driving.
    In terms of enforcement, I think that we--looking in terms 
of correction at least, for individuals who are in the 
correction system. Unfortunately our dollars are short. And 
colleagues of mine who work on the Parole Board frequently 
mention that individuals who are simply arrested and 
incarcerated for DWI are not getting into treatment sessions; 
that money is thin and services are thin, and individuals move 
around in different facilities, and it is difficult to get them 
in needed treatment while they are incarcerated. And once they 
are removed or in the community, we really need an intensive 
supervised probation, really have someone over them to provide 
some measure of control.
    And then finally, we need to continue on this education 
theme and judicial education, making sure that J and S's 
incorporate all the necessary components that will lead to 
effective strategies, and continuing to really raise what I 
think has ultimately been the most successful issue in New 
Mexico, is that it is now an issue on our plates. We all 
understand that this is an issue. We cannot let fall off.
    As the number of deaths will go down, it may not be as high 
on our radar screen, and so we have to remind everyone how 
serious a problem this is.
    Senator Udall. Thank you, all of you, for your answer on 
that question.
    I would like to ask Ms. Ortiz, Lora Lee, about the whole 
issue of--you talk about a comprehensive approach. And, you 
know, many advocate that laws like interlocks should only be 
applicable to chronic or high BAC offenders. And yet studies 
have shown the average drunk driver--this is an amazing 
statistic--the average drunk driver has driven drunk 87 times 
before the first arrest. What needs to be done to prevent drunk 
driving by those that have never been arrested?
    Ms. Ortiz. I think that we talked about the education piece 
is a huge component, that high visibility law enforcement, and 
letting people know that there will be a consequence, and then 
consequently, holding them accountable when there is a 
consequence. I think that is just a really important piece of 
the factor, so that involves everything from the law 
enforcement officer through that judicial process, through the 
probationary period. And it really includes family members as 
well, and that treatment piece that needs to come into play.
    But in all honesty, the only way that you are going to 
prevent it 100 percent is with some of these passive detection 
systems that will protect all of us. And this DADSS program, 
the technology that could take place as a result of that could 
prevent--it could prevent it 100 percent. It could completely 
eliminate drunk driving. And that is what we need to work 
toward in figuring out how can we eliminate this, because with 
as much education as we have done over the years, the 
improvement is still there, but so many lives are still being 
lost, and so many people are being injured.
    It impacts the family. It impacts the community. It impacts 
the workforce. It impacts the economy. And we just have to 
continue to be innovative and think about what can we do 
technology-wise to completely eliminate it.
    Senator Udall. Great. Thank you.
    Dr. Crandall, I cannot imagine how hard it must be for you 
to work in the emergency room and know that every victim of 
drunk driving you see is completely--it is a completely 
preventable crash. And that must be a very, very difficult 
situation.
    Your testimony on the costs of drunk driving are 
staggering. And as I pushed to get ROADS SAFE passed, I am 
often asked about its cost and where the funding will come 
from. And I just want to confirm from your testimony, each 
alcohol-related crash fatality costs over a million dollars in 
direct costs alone. So, if technology proves viable and 
automakers make it available in cars at a 5-year program cost 
to the government of $60 million, those funds would be more 
than recouped and trauma costs averted. Is that correct? Am I 
looking at that in the right way? And do those numbers make 
sense to you?
    Dr. Crandall. Yes, they do. In fact, we have to remember 
that these are not just medical costs for, say, the intoxicated 
individual. You have to consider all the other individuals who 
are touched by the crash, other passengers or individuals in 
other vehicles may sustain health care costs.
    We spend a tremendous amount of fire and emergency medical 
services response to motor vehicle crashes. We have a 
significant law enforcement response. Investigation of time 
that it takes out of individuals to dedicate to writing up 
reports and testifying in court.
    All of these add up to the costs. There are property costs 
as well, property damages, court costs, and ultimately, 
insurance costs.
    So, there are a lot of potential opportunities for--to save 
money, not just medical, but also a number of other sort of 
personal costs. And then, of course, the other savings in terms 
of having individuals who do not die, and their continued 
productivity.
    So, at least a million dollars is estimated to save, I 
think, in direct costs alone. And so, if we can offset 60 
deaths, then you would essentially pay for that $60 million.
    Senator Udall. All right. Thank you.
    Mayor Berry, one of the issues has to do with 
transportation, and I know this is something that you have 
looked at a lot and worked at. And I think the approach you 
have talked about is clearly making a difference on saving 
lives in Albuquerque.
    I am wondering on the transportation front, if there are 
more options for people to get to places, for example, taking 
the bus, or opportunities to walk, those kinds of things, do 
you think that would help reduce drunk driving? And what has 
been your experience in that respect?
    Mr. Berry. Well, Mr. Chairman, that is a topic of rather 
frequent conversation in City Hall, and it has been for a 
number of years. There have been a number of safe ride 
programs, other initiatives put into place to try to address 
that exact issue, with an end goal of ensuring that someone who 
has been drinking does not get behind the wheel of a vehicle. 
Some of those programs have been more successful than others.
    Currently what we are doing at the City of Albuquerque--I 
will tell you a little what we are doing currently and then 
about some additional plans that we have with transportation in 
general.
    We have extended the hours on Central Avenue. Albuquerque 
is a little unique in our transportation demographic. Almost 
half of our ridership in Albuquerque is on the central 
corridor, which is not necessarily normal for a city of our 
size. So, we have this very highly-used corridor.
    So, one of the things that we have done is we have extended 
the hours of operation during the summer. And what we have done 
on Central Avenue is we have taken route coverage to 12:30 a.m. 
on Mondays through Saturdays from June through the end of the 
State Fair. And what we have also done is we operate those 
routes until 1:30 a.m. on Friday and Saturday evenings as well. 
So, we are trying to give people more options.
    One of the things we talked about for Albuquerque is the 
next logical step for transportation, is bus rapid transit. And 
as a Mayor, I believe that is a good option. We talked to the 
Federal Transportation Administration, talked somewhat with 
your staff, I believe, about some of these issues.
    The more options we can put into place, the better we are 
going to be for not just the overall transportation picture, 
but to give people options. Couple that with walkability, 
making sure that people get on foot from place to place, have 
pedestrian--making sure we have pedestrian-friendly corridors. 
Those are all things we can do, and we are continuing to reach 
for those.
    Senator Udall. Thank you. And I think all of us appreciate 
you working on that and moving forward in that area.
    Chief Williams, when you talked about law enforcement and 
your approach to this, you mentioned in your testimony several 
challenges that law enforcement faces. And you face challenges 
in the apprehension end and the prosecution end. I wonder if 
you have additional recommendations on that front.
    Mr. Williams. Mr. Chairman, yes, sir. It all boils down to 
a limited number of resources. And just let me provide you an 
example, if you will.
    In 2004, when I was a captain in the New Mexico State 
Police, the State Police was authorized 604 officers, and they 
had 605 officers. Today, 2011, 7 years later, they are at 490. 
So, that is our entire State. That is the fifth largest State 
geographically in the United States.
    At the time in 2004, myself and actually the current Chief 
of the State Police, we prepared a staffing study. We had gone 
through the Staff and Command College through Northwestern 
University where we learned how to do staffing studies. And we 
conducted that staffing study, and we utilized different 
variables, including geography, and population, and shift 
rotations, and all of the things that are necessary to do that. 
And we utilized some of the most conservative numbers that were 
available to us. And at the time when we were completed with 
that study, it said that the State police needed an additional 
300+ on top of the 600 that they have--that they had.
    And so, if that is the case, then and if really law 
enforcement is our last line of defense, really quite honestly 
that is what we are, we want that line to be a very formidable 
line of defense. And I do not think we are there. I think the 
budget and all the issues that have happened, the economy, have 
taken its toll, not only on law enforcement. I would say it is 
everywhere. But it has taken its toll in our correction system, 
it has taken its toll in our courts, and it has certainly taken 
its toll in law enforcement.
    So, I would consider that limited number of resources--we 
need to dedicate the number of resources to the problem to 
impact it appropriately.
    I drove up this morning. I left Las Cruces this morning, 
and I saw two police officers, and they were on a billboard. I 
saw no one else between Las Cruces and Albuquerque--230 miles. 
Is that a formidable line of defense? I say no. So, I think 
that we need to concentrate and really get those efforts--and 
that is just one example. There are communities, there are 
cities. And, you know, I feel very fortunate where we are at in 
Las Cruces, but in some of the other areas, in the rural areas 
of the State, they are not so lucky.
    So, I would just ask that we focus in on placing the 
resources where they need to be.
    Senator Udall. Right. Well, this has been an excellent 
panel, and I think it really demonstrates for me the fact that 
all across the board we need to tackle this problem, to be 
vigilant, to keep up the pressure, and that we are doing it at 
the local level and the State level. And clearly, there need to 
be improvements if you--as you have just said, Chief. I mean, 
it is unacceptable to drop from a level of 605 to 490. I mean, 
the problem is still out there, and it needs to be tackled.
    So, we appreciate all of your efforts. We appreciate MADD 
and Dr. Crandall, where our heart goes out to these ER docs who 
are in the situation like you are on an every day basis, having 
to deal with the devastation that has been wrought by drunk 
drivers.
    So, with that, we are going to move to our third panel. 
Thank you very much. Very much appreciate the testimony. And 
any additional thoughts you have in writing, we are happy to 
hear.
    Senator Udall. Thank you, Mayor. Thanks, Chief.
    OK. As we switch over here, the last panel today includes: 
Dr. Sue Ferguson, the Program Manager for Driver Alcohol 
Detection System for Safety, Automotive Coalition for Traffic 
Safety; and David Culver, the Vice President of Government 
Affairs for the Distilled Spirits Council of the United States.
    Why don't you--Sue, why don't you go ahead and start off 
with your testimony, and we will move the way we did on the 
other panels? Thank you for being here.

              STATEMENT OF SUSAN FERGUSON, Ph.D.,

        PROGRAM MANAGER, DRIVER ALCOHOL DETECTION SYSTEM

      FOR SAFETY, AUTOMOTIVE COALITION FOR TRAFFIC SAFETY

    Dr. Ferguson. Thank you, Senator Udall, for hosting this 
hearing and for your continued leadership on drunk driving 
prevention, particularly on the advanced alcohol detection 
system for safety.
    Senator Udall. Maybe move that microphone just a little 
closer to you.
    Dr. Ferguson. OK.
    Senator Udall. Yes, that will be good.
    Dr. Ferguson. Particularly on the advanced alcohol 
detection research program known as DADSS, which I am here to 
describe. I am the Program Manager for this exciting activity 
which is making substantial progress.
    Your ROADS SAFE legislation, which would provide increased 
long-term funding for DADSS, is essential for the long-term 
success of this research program.
    We are pleased to see that your measures included in safety 
legislation, introduced recently by Senator Pryor of Arkansas, 
your Committee Chairman, Senator Rockefeller, and others. 
Chairman Rockefeller's continued support of the measure and the 
DADSS program is heartening, as is the support of Secretary 
LaHood and NHTSA Administrator Strickland.
    The driver alcohol detection system for safety is a 
research partnership between the National Highway Traffic 
Safety Administration and the Automotive Coalition for Traffic 
Safety, that is developing technologies to prevent vehicles 
from being driven when a driver's blood alcohol concentration 
is at or above .08 percent, which is currently the legal limit 
throughout the United States.
    At the end of this five-year initiative in the second half 
of 2013, there will be one or more promising research vehicles 
available to demonstrate promising alcohol detection 
technologies.
    The starting point for DADSS is a strong conviction for in-
vehicle alcohol detection technologies to be acceptable to 
drivers, many of whom do not drink, let alone drink and drive. 
They must be non-obtrusive; that is, accurate, fast, and 
reliable. They must be durable, and they must require little or 
no maintenance.
    To ensure that sober drivers who are under the legal limit 
will be inconvenienced, ACTS has developed stringent DADSS 
performance requirements, stipulating very high levels of 
accuracy and precision and very fast measurement times, less 
than half a second.
    DADSS devices will be required to meet the exacting 
standards for in-vehicle use required by automakers, such as 
long-term reliability, maintainability, and durability, and 
must be compatible for mass production at a moderate price. And 
as we have designed this program and looked for certain 
technologies, we have taken these aspects into account.
    Two technologies have been investigated. One is a touch-
based approach, allowing assessment of alcohol in human tissue, 
and a breath-based approach that allows assessment of alcohol 
concentration in the driver's exhaled breath.
    Phase I of the DADSS program is now complete, and we tested 
three proof-of-principle prototypes. We have done bench testing 
that has determined the prototype's accuracy, precision, and 
speed of measurement, and identified what additional 
development might be needed.
    Limited human subject testing that has been conducted with 
the Harvard Medical School, allowed us to establish the 
relationship of blood and breath samples from the subjects with 
measurements from the prototype devices. Based on this testing, 
it was concluded that both touch-based and breath-based sensors 
have the potential in the next phase of development to measure 
BAC very quickly and with high levels of accuracy and 
precision.
    Phase II will go beyond proof-of-concept devices to develop 
and demonstrate an in-vehicle system, and that will be 
forthcoming in the next few months.
    Although impressive progress has been made to date, 
significant additional development is needed. The technology 
developers have proposed modifications to the sensors that will 
enable them to meet the DADSS specifications at the end of 
Phase II. Accuracy and precision performance has to improve and 
measurement time has to decrease to meet or exceed performance 
specifications.
    For touch-base technology, a sensor redesign is needed to 
meet the rigors of the vehicle environment. For breath-based 
technology, additional sensor development is needed, and 
optimal vehicle sensor locations will be identified based on 
human breath aerodynamics in the vehicle across a wide range of 
environmental conditions. All of these technical challenges can 
be met with the additional development planned for Phase II.
    Consumer willingness to buy DADSS-equipped vehicles will 
come about only if the public concerns are taken into account 
during the development process. ACTS has begun that process 
with a series of focus groups around the United States, 
including one set here in Albuquerque, New Mexico. And these 
opinions will influence development of the technology. In 2012, 
a broader understanding of consumer sentiment will be sought 
through a national survey of drivers.
    While impressive progress has been made to date, the 
successful culmination of efforts to develop non-invasive in-
vehicle alcohol detection technologies will depend on continued 
and accelerated funding of the DADSS program. The technologies 
must meet a very demanding set of performance requirements for 
in-vehicle acceptability, and research vehicles need to undergo 
extensive field testing.
    We need to understand how drivers will interact with these 
systems, and extensive human subject testing will be needed to 
measure performance under a wide variety of conditions.
    As many have already said, the benefits of a successful 
DADSS program should not be underestimated. DADSS integrated 
within the vehicle has the potential to save up to 8,000 lives 
per year, eliminating the deaths and injuries caused by 
alcohol-impaired driving for generations to come.
    Once again, Senator, thanks for the opportunity to speak at 
this hearing today. I would be glad to answer any questions.
    [The prepared statement of Dr. Ferguson follows:]

 Prepared Statement of Susan Ferguson, Ph.D., Program Manager, Driver 
 Alcohol Detection System for Safety, Automotive Coalition for Traffic 
                                 Safety

    Thank you, Senator Udall, for the opportunity to speak at this 
hearing and thank you for your continued leadership on drunk driving 
prevention, particularly on the advanced alcohol detection research 
program, known as DADSS, which I am here to describe.
    In 2009, close to 11,000 people died on the Nation's highways and 
hundreds of thousands more were injured because of alcohol-impaired 
drivers. Although these numbers have been gradually coming down, the 
loss of so many lives every year is unacceptable. Strong DUI laws and 
enforcement of those laws can help to deter people from driving while 
over the legal limit, but we know that in spite of the best efforts of 
law enforcement and the judicial system, many millions of drivers will 
continue to drive when impaired by alcohol, and thousands of deaths and 
injuries will continue to occur every year. The solution to this 
problem is to develop vehicles that will prevent alcohol-impaired 
drivers from operating their vehicle.
    In 2008, the National Highway Traffic Safety Administration (NHTSA) 
and the Automotive Coalition for Traffic Safety (ACTS) began a five-
year, $10 million initiative, known as the Driver Alcohol Detection 
System for Safety (DADSS) Program, to explore the feasibility, the 
potential benefits of, and the public policy challenges associated with 
a more widespread use of non-invasive technology to prevent alcohol-
impaired driving. This research and development effort is funded 
jointly by NHTSA and most of the world's leading automakers (BMW, 
Chrysler, Ford, General Motors, Honda, Hyundai/Kia, Jaguar Land Rover, 
Mazda, Mercedes Benz, Mitsubishi, Nissan, Porsche, Toyota, Volkswagen, 
and Volvo). The DADSS program is developing technologies that would 
prevent the vehicle from being driven when the device registers that 
the driver's blood alcohol concentration (BAC) is at 0.08 percent or 
above (the legal limit throughout the United States). This is a data-
driven, scientific research program, with the technologies to be 
demonstrated in one or more research vehicles by the second half of 
2013. As we move forward with this technology and demonstrate its 
effectiveness, the research has suggested the American public will want 
to voluntarily adopt the technology in their vehicles.
    The starting point for DADSS is a strong conviction that for in-
vehicle alcohol detection technologies to be acceptable for widespread 
use among drivers, many of whom do not drink and drive, it must be 
seamless with the driving task; it must be non-intrusive, that is, 
accurate, fast, reliable, durable, and require little or no 
maintenance. Sober drivers who are under the legal limit of 0.08 
percent should not be inconvenienced with such systems. This requires 
that the performance requirements be extremely stringent.

The DADSS Program
    In 2007, ACTS formed a Blue Ribbon Panel of experts including 
representatives from automotive manufacturers and suppliers, public 
interest organizations, government representatives both domestic and 
international, and experts in the science of alcohol toxicology, 
behavioral impairment, human factors, and research, to advise the DADSS 
program on technical and policy issues. The DADSS program then 
undertook a comprehensive review of emerging and existing state-of-the-
art technologies for alcohol detection, and the development of 
performance specifications. A Request For Information (RFI) was 
published as a means by which the DADSS program was first communicated 
to potential vendors. The goal of the RFI was to establish the level of 
interest among technology developers in taking part in the research, 
the kinds of technologies available, and their states of development 
relevant to in-vehicle application. Based on an evaluation of the 17 
responses received, a Request for Proposals (RFP) was sent to eight 
organizations with prior experience in alcohol detection or related 
technologies. Subsequent to a detailed and rigorous evaluation process, 
three contracts were awarded for the development of Phase I proof-
of principle prototypes.
    Two approaches were identified for Phase I development as having 
considerable promise in measuring driver BAC non-invasively: (1) Tissue 
Spectrometry, a touch-based approach allowing assessment of alcohol in 
human tissue, and (2) Distant Spectrometry, a breath-based approach 
allowing assessment of alcohol concentration in the driver's exhaled 
breath. In the touch-based approach, measurement begins by shining an 
infrared light on the user's skin (similar to a low-power flashlight). 
A portion of the light scatters several millimeters through the user's 
skin before returning back to the skin's surface where it is collected 
by an optical touch pad. This light contains information on the 
tissue's unique chemical properties which can be analyzed to determine 
the tissue alcohol concentration. The breath-based approach makes it 
possible to perform a contact-free, quick, unobtrusive measurement of 
the driver's breath alcohol by using the concentration of carbon 
dioxide as a measure of dilution of the driver's exhaled breath. 
Multiple sensors placed in the vehicle cabin will allow the system to 
ensure that the breath sample is from the driver and not other 
passengers.

Demanding Performance Standards
    Performance standards for in-vehicle alcohol detection devices must 
be much more rigorous than current alcohol-testing technologies if they 
are not to inconvenience drivers. To that end, ACTS has developed 
extremely stringent performance specifications.\1\ Requirements for 
very high levels of accuracy and precision and very fast measurement 
times (less than half a second) will ensure that drivers who are under 
the legal limit will not be inconvenienced. We continue to address 
long-term reliability and system maintenance requirements, the 
influences of vehicle environment, and issues related to user 
acceptance, and the technologies must meet the exacting standards for 
in-vehicle use adopted by automakers.
---------------------------------------------------------------------------
    \1\ The performance specifications with definitions, measurement 
requirements, and acceptable performance levels are provided in the 
DADSS Subsystem Performance Specification Document (http://
dev.dadss.org/performance-specification/download).
---------------------------------------------------------------------------
    To validate the performance of the Phase I prototypes, unique 
standard calibration devices (SCDs) were developed by ACTS for both the 
breath- and touch-based systems. These SCDs go well beyond current 
alcohol-testing specifications. Two different SCDs were developed for 
prototype testing; one breath-based and one touch-based. There are two 
aspects that were addressed. First, samples of simulated ``breath'' and 
``tissue'' were developed to provide a calibrated alcohol concentration 
in vapor and/or liquid to the prototype. These samples provide close 
facsimiles of human breath and tissue and must exceed the DADSS 
specifications by an order of magnitude. Next, hardware was developed 
to deliver the breath-based and touch-based samples to the prototypes 
for blood alcohol measurement. The SCDs that were developed met the 
needs for Phase I testing, but additional work is required in order to 
undertake Phase II testing. Specifically, advances need to be made both 
in the accuracy and precision of the breath-based and touch-based 
samples, and refinements are needed for the delivery systems.

Phase I Effort Completed
    The Phase I effort, now complete, focused on the development of 
working proof-ofprinciple prototypes capable of rapidly and accurately 
measuring the driver's BAC non-intrusively. The prototypes, which were 
required to address just the accuracy, precision, and speed of 
measurement specifications, did not attempt to simulate the visual 
appearance, choice of materials or intended manufacturing process. The 
overall aim was to validate the potential design approach, as well as 
point to areas where further development and testing may be necessary. 
Three Phase I proof-of-principle prototype devices were delivered in 
mid 2010 and were tested at the laboratories of QinetiQ North America. 
The testing program was designed to determine whether the devices 
demonstrate the potential to meet the stringent performance 
specifications established for non-invasive alcohol testing. Bench 
testing was undertaken to determine the prototypes' accuracy, 
precision, and speed of measurement, and to identify what additional 
development might be needed. Limited human subject testing, conducted 
with the Harvard Medical School, permitted an understanding of the 
relationship among the various measures of blood alcohol provided 
through blood and breath samples, and those provided by the breath-
based and touch-based prototype devices.
    Based on the results of prototype testing, sensors demonstrating 
both the touch-based approach and breath-based approach are judged to 
have the potential in Phase II development to measure BAC quickly, and 
with high levels of accuracy and precision. Currently one of each of 
the breath-based and touch-based devices have come close to meeting 
accuracy requirements, but have fallen short on precision measurements. 
Significant additional development is needed, but the developers have 
identified potential modifications to the devices that will enable them 
to meet the DADSS specifications at the end of the Phase II 
development.

Phase II Program
    Phase II is the major development effort that will lead to one or 
more research vehicles to demonstrate the technologies. The Phase II 
program is envisaged to span approximately 2 years and will include 
only those technologies that have successfully completed Phase I. It is 
anticipated that Phase II development will begin in the fourth quarter 
of 2011.
    Although impressive progress has been made to date, as technology 
development continues into Phase II there are many different facets of 
performance that need to be addressed to prepare the technology for in-
vehicle use. Accuracy and precision have to improve, and measurement 
time has to decrease to meet or exceed performance specifications. With 
respect to touch-based technology, a sensor redesign using solid state 
components is planned to meet the rigors of the in-vehicle environment. 
This requires a new approach both for the sensor architecture and for 
the algorithms used to estimate tissue alcohol concentration. For the 
breath-based technology, sensor development needs to be accelerated to 
improve accuracy and precision, and optimal vehicle sensor locations 
need to be identified based on in-vehicle human breath aerodynamics, 
across a wide variety of environmental conditions. Revised prototype 
designs have been proposed to address vehicle integration and consumer 
affordability. Both breath-based and touch-based sensors will need to 
meet the exacting standards automakers require for all new vehicle 
safety equipment. The development of standard calibration devices 
required to test the Phase II sensors is ongoing and significant 
improvements will need to be made to ensure sensors meet the exacting 
DADSS requirements.
    These technical challenges can be met with the additional 
development planned in Phase II.

Consumer Feedback to the Design Process
    As technology development progresses and decisions are being made 
about best practices for integrating such technology into vehicles, 
researchers are soliciting public opinions about the proposed in-
vehicle alcohol detection devices. Consumer willingness to deploy the 
technology in their vehicles will depend on how public attitudes are 
taken into account during the development process. The failed adoption 
of seat belt ignition interlocks in the 1970s taught us the need to 
understand in advance the issues and concerns of the driving public. 
DADSS has been conducting focus group testing around the United States 
to gauge public perceptions and concerns about the different technology 
approaches, and these opinions will influence development of the 
technology. In the coming years a broader understanding of consumer 
sentiment will be sought through a national survey of drivers.

DADSS Will Make a Difference
    The technical and public policy challenges are substantial, but the 
potential benefits to society of in-vehicle alcohol detection systems 
are compelling. DADSS has the potential to save up to 8,000 lives per 
year (Insurance Institute for Highway Safety, 2010),\2\ and there is 
evidence that the public is ready for in-vehicle devices to combat 
alcohol-impaired driving. Two-thirds of drivers say they consider the 
use of advanced technology to keep alcohol-impaired drivers off the 
roads to be a ``good'' or ``very good'' idea.\3\
---------------------------------------------------------------------------
    \2\ Insurance Institute for Highway Safety. 2011 http://
www.iihs.org/research/fatality_
facts_2009/alcohol.html. Accessed August 1, 2011.
    \3\ McCartt, A. T., Wells, J. K., Teoh, E. R. 2010. Attitudes 
toward in-vehicle advanced alcohol detection technology. Traffic Injury 
Prevention, 11, 158-164.
---------------------------------------------------------------------------
    While impressive progress has already been made, there is much more 
to be done before this research is ready for consumer application. S. 
510 (ROADS SAFE Act of 2011) will help accelerate this effort and open 
the door to a future where alcohol-impaired driving fatalities are a 
rarity versus the chronic traffic safety problem it remains today.
    The benefits of a successful DADSS Program should not be 
underestimated. We are on the cusp of being able to eliminate the 
deaths and injuries caused by alcohol-impaired driving for generations 
to come.

    Senator Udall. Thank you very much.
    Mr. Culver, please proceed.

         STATEMENT OF DAVID A. CULVER, VICE PRESIDENT,

         GOVERNMENT AFFAIRS, DISTILLED SPIRITS COUNCIL

                      OF THE UNITED STATES

    Mr. Culver. Good afternoon, Mr. Chairman. My name is David 
Culver, and I am Vice President of Government Affairs for the 
Distilled Spirits Council of the United States. DISCUS is a 
national trade association representing America's leading 
distillers that produce or market nearly 70 percent of all 
distilled spirits brands sold in this country.
    It is an honor today to recognize our newest craft 
distiller affiliate member, Mr. Colin Keegan from Santa Fe 
Spirits, who I am pleased is able to be with us here.
    On behalf of DISCUS, I appreciate the opportunity to speak 
today on the topic of drunk driving. I do not claim to be an 
expert on all aspects of this topic, but I have had extensive 
experience working on Federal anti-drunk driving issues during 
my tenure at DISCUS.
    Specialists at our sister organization, The Century 
Council, have spent careers working to prevent and combat drunk 
driver, and their work is a part of our social responsibility 
policies. The Century Council is an independent not-for-profit 
organization funded by many of the same companies that fund 
DISCUS, and was founded 20 years ago to develop and implement 
programs that fight drunk driving and under-age drinking.
    For over 75 years, the Distilled Spirits Council has been 
committed to the elimination of drunk driving through education 
programs and the enactment of comprehensive drunk driving laws. 
Through The Century Council, the spirits industry also has 
worked in partnership with law enforcement and the judicial 
community to target hardcore drunk drivers, those with a BAC of 
.15 or above and repeat DWI offenders.
    These initiatives include stricter penalties for hardcore 
drunk drivers and resources and developing programs that focus 
on these drivers, who are the source of a disproportionate 
share of highway crashes.
    Last year, Mr. Chairman, you took another positive step in 
the fight against drunk driving by introducing the ROADS SAFE 
Act. DISCUS commends you for your effort, and we are pleased to 
reiterate our support for this important legislation. The bill 
provides funding for research to develop in-car alcohol 
detection technology, and would be a voluntary option for 
automobile purchasers, and would be set at the .08 BAC limit. 
We also support the objectives that this technology be highly 
accurate, moderately priced, and unobtrusive to the responsible 
driver.
    DISCUS will once again urge Congress to act swiftly and 
pass the current legislation, the ROADS SAFE Act of 2011.
    Prior to introducing the ROADS SAFE Act, all stakeholders 
were given the opportunity to share their thoughts on the 
legislation with your staff. They provided a clear explanation 
of the bill and its objectives, and addressed our concerns 
about the import of this legislation, which are summarized 
below.
    First, there was unease that the purpose of the driver 
alcohol detection system for safety, DADSS program, was to 
develop technology that would be mandatory in all cars. Some 
participants of the DADSS program envisioned a mandatory device 
at some time in the future, but it is not the stated objective 
of the program or the research. DISCUS does not support 
mandating installation of these devices in all cars, nor does 
the bill have this requirement. MADD, a strong proponent of 
this legislation, also underscored that this technology, 
``would be an optional safety feature on new cars, not mandated 
on all vehicles,'' in its March 21, 2011 press statement 
applauding introduction of the ROADS SAFE Act.
    Second, there was a question whether interlock devices 
would be set a level lower than the .08 BAC legal limit. In 
response, your staff stated that interlocks will not be widely 
accepted if they are set below this legal limit, and provided 
assurances to address these concerns. Our support for this 
legislation hinges on the requirement that the device be 
accurately calibrated at the .08 BAC legal limit. MADD also 
emphasized in its March 21 press statement that, ``The 
technology would be set at .08 BAC, not lower.''
    Third, the bill states that the driver alcohol detection 
system should be accurate at other BAC levels ``as may be 
established by applicable Federal, State, or local law.'' Your 
staff has repeatedly assured DISCUS that this provision is 
intended to account for the current Federal .04 BAC limit for 
commercial drivers, and zero tolerance limits established by 
States for individuals under the legal drinking age.
    Opponents of the bill see ambiguity in this provision and 
worry that it is a clear indicator that the device could be set 
at levels below the .08 BAC legal limit. While DISCUS does not 
share that view, we do respectfully suggest that the Committee 
consider ways to tighten up and amend the language of this 
provision to reflect your true intentions.
    With this information in hand, the decision for DISCUS to 
support this bill was not difficult. In sum, the bill provides 
funding needed for research to develop in-car alcohol detection 
technology that would be a voluntary option for new car buyers, 
and would be set at the .08 BAC legal limit.
    We appreciate the opportunity to convey our views and look 
forward to working with you on the passage of this bill.
    [The prepared statement of Mr. Culver follows:]

        Prepared Statement of David A. Culver, Vice President, 
   Government Affairs, Distilled Spirits Council of the United States

    Senator Udall and members of the Committee, my name is David Culver 
and I am Vice President of Government Affairs for the Distilled Spirits 
Council of the United States (DISCUS). DISCUS is a national trade 
association representing America's leading distillers that produce or 
market nearly 70 percent of all distilled spirits brands sold in this 
country. Over the years, DISCUS has served as the distillers' voice on 
public policy and legislative issues in our Nation's capital, state 
capitals and foreign capitals worldwide. Our members include Bacardi 
USA, Beam Global, Brown-Forman, Constellation Brands, Diageo, Florida 
Caribbean Distillers, Luxco, Moet Hennessy USA, Patron Spirits Company, 
Pernod Ricard USA, Remy Cointreau, Sidney Frank Importing Company, and 
a group of 40 craft distiller affiliate members from across the 
country. It is an honor to recognize our newest craft distiller member, 
Mr. Colin Keegan from Santa Fe Spirits, who I am pleased is able to 
join us today.
    On behalf of DISCUS, I appreciate the opportunity to speak today on 
the topic of drunk driving. I do not claim to be an expert on all 
aspects of this topic, but I have had extensive experience working on 
Federal anti-drunk driving issues during my tenure at DISCUS. 
Specialists at our sister organization, The Century Council, have spent 
careers working to prevent and combat drunk driving and their work is 
part of our social responsibility policies. The Century Council is an 
independent not-for-profit organization funded by many of the same 
companies that fund DISCUS and was founded 20 years ago to develop and 
implement programs that fight drunk driving and underage drinking. 
These programs have been launched across the Nation bringing them to 
millions of parents, youth, educators, law enforcement officials, and 
traffic safety professionals.
    For over 75 years, the Distilled Spirits Council has been committed 
to the elimination of drunk driving through education programs and the 
enactment of comprehensive drunk driving laws. Our history of 
responsibility includes anti-drunk driving PSA's dating back to the 
1930s, funding the development of a breathalyzer in the 1940s, serving 
on the Presidential Commission on Drunk Driving in the early 80s, and 
co-sponsoring with the Department of Transportation the highly 
successful ``Friends Don't Let Friends Drive Drunk'' public service 
campaign in the 1980s that continues today. In addition, in 2001, 
DISCUS and The Century Council forged a coalition with the Mothers 
Against Drunk Driving (MADD) in support of a .08 BAC level coupled with 
comprehensive drunk driving measures.
    Through The Century Council, the spirits industry also has worked 
in partnership with law enforcement and the judicial community to 
target hardcore drunk drivers--those with a BAC of .15 or above and 
repeat DWI offenders. These initiatives include stricter penalties for 
hardcore drunk drivers and resources in developing programs to focus on 
these drivers who are the source of a disproportionate share of highway 
crashes. Distillers are proud of our longstanding commitment to social 
responsibility and will continue to lead the way in preventing and 
combating drunk driving.
    Last year, Senator, you took another positive step in the fight 
against drunk driving by introducing the ROADS SAFE Act. DISCUS 
commends you for your efforts and we are pleased to reiterate our 
support for this important legislation. The bill provides funding for 
research to develop in-car alcohol detection technology that would be a 
voluntary option for automobile purchasers and would be set at the .08 
BAC limit. We also support the objectives that this technology be 
highly accurate, moderately priced and unobtrusive to the responsible 
driver. DISCUS will, once again, urge Congress to act swiftly and pass 
the current legislation, the ROADS SAFE Act of 2011.
    Prior to introducing the ROADS SAFE Act, all stakeholders were 
given the opportunity to share their thoughts on the legislation with 
your staff. DISCUS and our industry colleagues were grateful for this 
opportunity. Your staff provided a clear explanation of the bill and 
its objectives, and addressed our concerns about the import of this 
legislation, which are summarized below.
    First, there was unease that the purpose of the Driver Alcohol 
Detection System for Safety (DADSS) program was to develop technology 
that would be mandatory in all new cars. It is known that some 
participants of the DADSS program envision a mandatory device at 
sometime in the future, but that is not the stated objective of the 
program or the research. DISCUS does not support mandating the 
installation of these devices in all cars, nor does the bill have this 
requirement. MADD, a strong proponent of this legislation, also 
underscored that this technology ``would be an optional safety feature 
on new cars, not mandated on all vehicles'' in its March 21, 2011 press 
statement applauding the introduction of the ROADS SAFE Act.
    Interlock devices should be an option for people when they purchase 
a new car, not a government-required feature in every car. After all, 
nearly 40 percent of the adults in the United States do not even drink 
alcohol and the overwhelming majority of those adults who choose to 
drink do so responsibly.
    Second, there was a question whether interlock devices would be set 
at a level lower than the .08 BAC legal limit. In response, your staff 
stated that interlocks will not be widely accepted if they are set 
below this legal limit, and provided assurances to address these 
concerns. Our support for this legislation hinges on the requirement 
that the device be accurately calibrated at the .08 BAC legal limit. 
MADD also emphasized in its March 21 press statement that ``the 
technology would be set at .08 BAC, not lower.''
    Third, the bill states that the driver alcohol detection system 
should be accurate at other BAC levels ``as may be established by 
applicable Federal, state or local law.'' Your staff has repeatedly 
assured DISCUS that this provision is intended to account for the 
current Federal 0.04 BAC limit for commercial drivers and zero 
tolerance limits established by states for individuals under the legal 
drinking age. Opponents of the bill see ambiguity in this provision and 
worry that it is a clear indicator that the device could be set at 
levels below the .08 BAC legal limit. While DISCUS does not share that 
view, we do respectfully suggest that the Committee consider ways to 
tighten up and amend the language of this provision to reflect your 
true intentions.
    With this information in hand, the decision for DISCUS to support 
this bill was not difficult. In sum, the bill provides funding needed 
for research to develop in-car alcohol detection technology that would 
be a voluntary option for new car buyers and would be set at the .08 
BAC legal limit.
    All sectors of the distilled spirits industry--from suppliers to 
wholesalers to retailers--share the common objective of preventing 
drunk driving. We have been gratified to note that progress has been 
made in fighting drunk driving, but we all know more needs to be done. 
DISCUS thanks you for your commitment to this issue and we will look 
forward to helping you enact the ROADS SAFE Act during this Congress. 
Thank you for allowing me to speak on behalf of the Distilled Spirits 
Council at today's hearing.

    Senator Udall. Thank you. Thank you, both of you, very much 
for your testimony.
    Mr. Culver, DISCUS and The Century Council have been key to 
moving forward with ROADS SAFE. And I am also pleased to see 
industry support broadening to include the Wine and Spirits 
Wholesalers and the National Beer Wholesalers Association. 
Their support is in part due to the efforts of DISCUS and The 
Century Council and your members in helping to combat the 
misinformation that has been spread by opponents.
    Can you explain further on the importance of industry 
supporting ROADS SAFE and the DADSS research program?
    Mr. Culver. Thank you, Mr. Chairman, for that question.
    First, I'll start with saying that all sectors of the 
beverage alcohol industry are vehemently opposed to drunk 
driving. This is a commitment that the industry shared for 
decades. We also have a long-standing commitment to research, 
and DISCUS in fact can trace our commitment back to the 1940s 
when we helped fund the development of breathalyzer.
    But with regards to the ROADS SAFE Act, your staff has done 
an excellent job explaining to the industry what this bill does 
do and what it does not do. And it has been key to our decision 
to support this bill. They made it very clear to us that the 
bill would fund the research for ignition interlock technology, 
that the bill would be--that the device would be voluntary--a 
voluntary option on new vehicles, and that it would be set at 
the .08 BAC legal limit. We support all of these points.
    And I should also mention that we believe that the bill 
respects the rights of the responsible social drinker, while 
keeping the focus on keeping drunk drivers off the roads. So, 
it is for these reasons that I think DISCUS and others in the 
industry have decided to support this bill.
    Senator Udall. Thank you.
    Ms. Ferguson, opponents to ROADS SAFE legislation have 
frequently compared the technology being developed to an 
ignition interlock, and have stated false claims about the 
accuracy and reliability of this new technology. Can you go 
into a little more detail into accuracy and reliability of the 
new system?
    Dr. Ferguson. Certainly, Mr. Chairman. You know, when we 
began thinking about DADSS and what would DADSS look like, it 
was clear to us that it was quite a different technology than 
ignition interlock in so many ways. And we understood that in 
order for such a technology to succeed, that it really did have 
to be unobtrusive and visible, if you like, to the sober 
driver.
    And so, when we first began this effort and ACTS pulled 
together the Blue Ribbon panel of experts, we used some of our 
experts to try and put together a very rigorous set of 
performance requirements, and we have posted those on our 
website.
    So, what we were particularly focusing on is a technology 
that would be very accurate, very precise, very quick, but also 
would be able to perform in a vehicle in a manner that you 
would want, like every other safety equipment would have to be 
reliable, and durable, maintenance free, so that in no way was 
it going to inconvenience the driver.
    And when it comes to accuracy and precision, we actually 
adopted a standard that is more than 10 times greater than the 
current standard for alcohol-related testing devices, and so 
much so that we actually are in the process of developing our 
own testing equipment because there is not even any equipment 
out there that can test the levels of accuracy and precision 
that we are requiring.
    The other aspect, obviously we have set the time it has to 
measure within less than half a second, which basically means 
that it is the same as it today. The amount of time you take 
when you get in your vehicle today for the vehicle to decide 
that it is OK for you to start it. There is some technology in 
there that is part of the theft reduction that actually does a 
quick test to make sure it is OK. And we have decided that that 
less than half a second is the standard that we are going to 
use.
    Beyond that, when it comes to in-vehicle equipment, we have 
adopted the very stringent standards of the automobile 
industry, and we are using a six sigma process for reliability. 
In other words, there is a 99.99966 percent chance that that 
component will be defective, and that is absolutely the highest 
standard in the industry, and we are requiring that as well.
    So, we have taken many steps to make sure that this 
technology will be highly accurate, reliable, and durable, and 
will not inconvenience the sober driver.
    Senator Udall. The program is currently, Ms. Ferguson, 
entering Phase II and has a way to go before it can even be 
considered for vehicle deployment. Can you talk a little 
further about how you see the technology being implemented in 
the future? Would it be sold as an option in vehicles, perhaps 
for parents wanting to ensure their child does not drive drunk?
    Dr. Ferguson. Well, from the beginning, we have always said 
that this is a voluntary, not mandatory, program. And it is 
interesting really. I have been in the highway safety field for 
20 years, and in that time we have seen massive, I think, 
implementation of all kinds of safety technology that involves 
sensors in the vehicle. And we see DADSS sensor as another kind 
of sensor in the vehicle.
    I think it is important to understand it in that way. But 
as we implement it, as manufacturers implement safety 
technology, it is typically done as an option that people can 
buy for their vehicle.
    As we have been talking to people around the country and 
asking them about their concerns, one of the things that they 
have expressed, particularly parents obviously, is that they 
would like to have this technology to be available when their 
children reach teenage years. And I have to say I am a parent, 
and when my daughter was a teenager, she had all sorts of 
restrictions that nobody else had. But I would have loved this 
kind of technology. And I am hoping that 1 day I will be a 
grandmother, and certainly by the time my grandchildren are old 
enough to drive, that this technology will be available.
    We are doing a lot of the research in the field, both the 
focus groups and we will be doing national surveys and 
additional focus groups, because we want to be sure that 
everybody's concerns are met, so that when this technology 
finally has been developed and is available in vehicles, it 
meets all of those concerns that people have. And they will 
voluntarily want to adopt this in their own vehicle.
    Senator Udall. Great. I have a couple of concluding 
remarks, but I first just want to thank both of you. And I know 
you had to sit through the other panels. We very much 
appreciate that. And we hope you learned a little bit also from 
their testimony. But thank you for being here today, and to 
thank everybody else that is here in the audience.
    I think it is clear from these three panels we have made 
progress, but we still have a lot to do, no doubt about it. And 
one of the best things, I think, we could do is to enact ROADS 
SAFE and ignition interlock laws on a nationwide basis. We 
clearly, as the panels have urged here, need continued 
awareness and enforcement campaigns.
    And Dean Washburn, You are still here. I wanted to mention 
these new programs that are out, that are innovating here at 
the law school, you have a program called the DWI/domestic 
violence prosecution in practice class. The reason I came to 
the University of New Mexico was because I wanted to see how 
law came to life. And I think you have one of the best, if not 
the top, clinical law programs in the country, and one of 
that--one of those clinical law components is focusing on DWI 
prosecution, so students have the opportunity, which I did as a 
law student here, to go through that and to be able to see what 
is going on, experience the court system, and represent the 
State of New Mexico. So, thank you. Thank you for that.
    And I think it is clear, you know, we will get to a day 
when we can get in our car and know that our drive home is 
safe, and we will no longer need to fear that a drunk driver 
may alter our lives or the lives of our families. And we want 
that to happen.
    And I want to just thank all the advocates and others that 
are here for their tireless efforts. And I also want to thank 
the Committee, Chairman Rockefeller, and Ranking Member Kay 
Bailey Hutchison, for their support. They--in Washington we 
have done hearings on this issue in a number of different 
contexts, and both of them have been very supportive as well as 
other committee members.
    And we have a very capable staff member here with us, Alex 
Hoehn-Saric. He joined us today from Washington. He is working 
hard with Chairman Rockefeller to ensure that combating drunk 
driving remains a priority in the next surface transportation 
reauthorization bill, and that the resources we need are 
available and in that bill.
    And then finally, just let me remind all of you that the 
record will remain open until August 19. We welcome your 
written testimony. You can submit it to us today or at my 
Albuquerque office, or e-mail it directly to the Committee.
    And so, with that, we wish you a very, very good day. And 
the Committee is adjourned.
    [Whereupon, at 1:16 p.m., the hearing was adjourned.]


                            A P P E N D I X

                                Alvarado Sober Living House
                                    Albuquerque, NM, 17 August 2011
To: Senator Tom Udall (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="385b57564c595b4c784c57554d5c595454164b5d56594c5d165f574e">[email&#160;protected]</a>)
cc: U.S. Senate Committee on Commerce, Science, and Transportation
Attn: Alexander D. Hoehn-Saric, Senior Counsel
From: J. Steven Richards, House Manager

Re: Written Testimony regarding Drunk Driving subcommittee hearing, 
            Albuquerque, NM, August 10, 2011

Senator Udall:

    I am writing this letter and submitting my testimony to the Drunk 
Driving subcommittee hearing pursuant to our conversation in 
Albuquerque following the hearing on August 10, 2011.
    My qualifications to provide testimony are greater than the average 
member of the general public. I am a treatment/rehabilitation 
professional, have a Paralegal Studies AAS degree with criminal 
litigation specialty, am currently a last semester senior about to get 
a BA in Psychology, will be pursuing a dual masters degree (Social Work 
and Business Administration), am a professional journalist, and also am 
an alcoholic/addict in recovery who has experienced the legal system as 
an offender. I feel that this rather unique combination of experience 
and education gives me a well-rounded perspective on the subject 
matter.
    I found the hearing and testimony very informative as well as 
encouraging. The vast majority of testimony I heard I agree with 
wholeheartedly. I would like to emphasize that I do not support 
incarcerating first-time offenders except in the most heinous of 
circumstances.
    It has been proven that rehabilitation and treatment in combination 
with either alternative sentencing options or offender reentry is an 
effective way to deal with first-time substance abuse offenders--
effective in terms of both results and cost-effectiveness.\1\ DUI and 
Drug Courts also have proven to be very effective ways of dealing with 
alcohol/substance abuse offenders, with astoundingly low recidivism/
relapse rates for participating offenders.\2\
---------------------------------------------------------------------------
    \1\ Valentine, D. C., Albers, N. A., Huebner, B., and Department of 
Criminology and Criminal Justice, U. o.-S. (2006, June 30). Alternative 
Sentencing & Strategies for Successful Prisoner Reentry. Retrieved 
August 17, 2011, from University of Missouri System: https://mospace.
umsystem.edu/xmlui/handle/10355/2597.
    \2\ Roman, J., Townsend, W., & Avinash Singh Bahti, P. (2003, 
July). Recidivism Rates for Drug Court Graduates: Nationally Based 
Estimates, Final Report. Retrieved August 17, 2011, from National 
Criminal Justice Reference Service: https://www.ncjrs.gov/pdffiles1/
201229.pdf.
---------------------------------------------------------------------------
    The testimony of importance I provide is in order to point out a 
big gap--a weakness in the system that leads many to relapse and re-
offend. That gap is in what happens to a substance use offender after 
they are discharged from the system, whether it be from incarceration, 
probation/parole, DUI/Drug Court, treatment, or rehabilitation.
    This is a very crucial period, one which often makes or breaks 
those in early recovery--a period that often determines if the ex-
offender is able to successfully become established in long-term 
recovery.
    If they return to their pre-incarceration/pre-recovery environment 
(living and working situation), it often spells disaster. The ex-
offender in early recovery needs a living, working, and social 
environment conducive to staying clean and sober. If they go back to a 
dysfunctional home or work environment, especially one in which 
alcohol/drug use is still taking place, it is next to impossible for 
them to maintain their recovery. Supportive living/housing environments 
(such as those found in Sober Living or Halfway Houses) and supportive 
employment counseling & services (or training/education) can be crucial 
to the recovery of such ex-offenders.\3\
---------------------------------------------------------------------------
    \3\ Kedia, S. (2005). Treatment Effectiveness for Repeat DUI 
Offenders in Tennessee (2003-2004). Retrieved August 17, 2011, from The 
University of Memphis: Institute for Substance Abuse Treatment 
Evaluation: http://isate.memphis.edu/Reports/ADAT-03-04.pdf.
---------------------------------------------------------------------------
    In New Mexico, if not nationally, Halfway and Sober Living Houses--
with the exception of those receiving governmental funding--operate 
with no functional external oversight. This leaves such facilities ripe 
for ownership/management dysfunctionality and corruption, placing ex-
offender residents at high risk of relapse and recidivism. Fly-by-night 
operations abound, and respectable effective sober living facilities 
are few and far between. Not only are more Halfway and Sober Living 
Houses sorely needed, but minimal functional oversight and regulation 
is necessary in order to eliminate all the fly-by-night operations that 
do the ex-offender, and therefore the public good, a gross disservice.
    In conclusion, while I agree with, support, and applaud all of the 
testimony presented at the hearing, there is a severe lack that needs 
to be addressed. Law enforcement, sentencing, and alternative 
sentencing has come a long way and is progressive and fairly well-
developed. Treatment and rehabilitation, while still under-utilized and 
minimally deployed, is gaining ground at a rapid pace. The severe lack 
lies in the availability of supportive living environments (Halfway & 
Sober Living houses), the oversight and regulation of such, and in 
employment support. Without properly addressing these subjects, most 
substance abusers will never leave the revolving door of relapse and 
recidivism, and will continue to be a much larger burden on society 
than a well-integrated program of rehabilitation and alternatives to 
incarceration.
    Thank you for allowing me to submit/provide testimony on this 
subject. If you have any questions, please feel free to contact me at 
the above address, e-mail, or phone number.
                                 ______
                                 
         Prepared Statement of Professor Martina Kitzmueller, 
   Research Professor of Law, University of New Mexico School of Law

Introduction
    It is an unfortunate reality that New Mexico faces serious problems 
with both driving while intoxicated and domestic violence crimes. 
Alcohol is involved in 40 percent of all fatal traffic accidents in the 
state,\1\ resulting in 143 deaths in 2009.\2\
---------------------------------------------------------------------------
    \1\&& NM Department of Public Safety, http://www.dps.nm.org/
lawEnforcement/dwi/.
    \2\ DWI Resource Center, http://www.unm.edu/dgrint/fars/
summ08.html.
---------------------------------------------------------------------------
    In Bernalillo County alone, District Attorney Kari Brandenburg has 
shared that there are approximately 7,000 DWI prosecutions per year. A 
significant portion of these result in dismissal.\3\ While there are a 
variety of reasons, some of these dismissals are attributable to the 
finite resources of the District Attorney's Office. The District 
Attorney has stated that her office is forced to operate below 75 
percent of the funding currently needed to manage such a caseload.
---------------------------------------------------------------------------
    \3\ MADD [DRAFT] Interim Report for 2008.
---------------------------------------------------------------------------
    In 2005, the rate of domestic violence in New Mexico was 26 per 
1,000 with an estimated 1 in 3 women and 1 in 7 men age 18 and over 
suffering from domestic violence during their lifetimes.\4\ In 2005, 
there were 36,594 statewide victims of domestic violence, with each 
victim suffering an average of 5.5 incidences of violence. In 
Bernalillo County alone, there were approximately 5,000 domestic 
violence cases filed by the DA's office. As over one third of instances 
of domestic violence in New Mexico involve alcohol or drug use, alcohol 
use is an overriding problem that needs to be addressed in both the DWI 
and domestic violence contexts.
---------------------------------------------------------------------------
    \4\ All statistics from Incidence and Nature of Domestic Violence 
In New Mexico IX: An Analysis of 2008 Data From The New Mexico 
Interpersonal Violence Data Central Repository.
---------------------------------------------------------------------------
    Overall, the state has an urgent need to reduce the incidents of 
these crimes through both preventative measures as well as the improved 
prosecution of these crimes. One of the programs instituted to 
effectuate this change is the DWI and Domestic Violence Prosecution in 
Practice course at the University of New Mexico School of Law.

Prosecution in Practice
    In May 2010, the School of Law and the Governor's office announced 
a new law school course titled DWI and Domestic Violence Prosecution in 
Practice, funded through a grant from the New Mexico Department of 
Transportation, Traffic Safety Bureau.
    As New Mexico's only law school, all interested parties realized 
that the UNM School of Law is in the unique position of preparing 
students to prosecute domestic violence and DWI cases specifically 
within New Mexico and its criminal justice system. Unlike out-of-state 
law schools or general clinical programs, DWI and Domestic Violence 
Prosecution in Practice educates and prepares students to address the 
specific needs of DWI and domestic violence prosecution in the state of 
New Mexico, with its unique issues under its specific laws.
    The Prosecution in Practice Program enrolls up to 8 second- or 
third-year law students per semester. It includes both a classroom and 
field experience component. Students receive four credit hours for 
their work in the course. The field experience includes 10 hours per 
week of direct hands-on experience in prosecuting DWI and domestic 
violence cases. The students are supervised in their field work 
principally by the course instructor, only occasionally by a field 
prosecutor with at least 5 years related practice experience.
    The classroom component includes interdisciplinary instruction in 
the social, economic, psychological, and cultural dynamics of the 
addictive and violent behaviors. The UNM Medical School has committed 
to assisting by providing a specialist in the field of addiction. The 
New Mexico Domestic Violence Leadership Commission has provided its 
assistance in securing training and other resources directed at 
domestic violence education, and several other community agencies are 
participating as well.
    Students who finish the Program emerge ready to enter a district 
attorney's office upon graduation with a strong foundation desirable to 
any employer, seriously reducing the time needed for training. A 
prepared next generation of assistant district attorneys is ready to 
assist in the continued effective prosecution of DWI and domestic 
violence crimes. In addition, the students bring information from 
outside the field of law to contribute to the various district 
attorneys' offices.
    To provide a complete education, the Program explores beyond the 
legal practicalities and educates students on the causes behind and 
treatment of DWI and domestic violence cases. Through partnering with 
medical and psychological educators as well as community activists and 
government resources, such as MADD, the New Mexico Domestic Violence 
Leadership Commission and victim advocate groups, students get a well-
rounded education to prepare them not only to prosecute, but to help 
work toward the prevention and reduced recidivism of DWI and domestic 
violence offenses and offenders. Students also explore legislative 
policy avenues for addressing these crimes and may chose to participate 
in the legislative process as part of their experience.
    The case split within the Practicum is 80 percent DWI cases and 20 
percent domestic violence cases. The predominant focus is thus on the 
prosecution of drunk driving. The Practicum selects domestic violence 
cases where alcohol was a factor in the offense, to further the 
students' understanding of the interrelation between different alcohol 
related offenses. Prosecuting at the same time drunken driving and 
alcohol related instances of domestic violence, students learn how 
alcohol abuse impacts community safety on every level.
After the First Year
    After a start-up phase where Professor Hope Eckert developed 
logistical protocols and student materials, created the curriculum and 
made contact with various community agencies, DWI and Domestic Violence 
Prosecution in Practice had its debut in the fall 2010 semester and 
then continued through the spring of 2011. In the first year, students 
handled 50 cases and 126 court appearances (hearings and trials).
    The Program was a success in meeting its objective of educating and 
preparing students to prosecute DWI and domestic violence cases. 
Metropolitan Court Chief Judge Judith K. Nakamura, who sponsored the 
program in her courtroom, has expressed her satisfaction with the 
course as well as her support for its renewal. Students have expressed 
how much they enjoyed the course, how much they learned, and how much 
more prepared they feel for the practice of law. In fact, several are 
looking specifically at prosecution careers and have interviewed with 
various district attorney offices.
    As the program develops, it is the expectation that it will be able 
to offer additional resources to the state such as training or CLE 
programs and materials to further the understanding, prevention and 
prosecution of DWI and domestic violence cases.
    Because of this success, the Practicum was just renewed for two 
more years through an additional grant from the Traffic Safety Bureau 
Division of the New Mexico Department of Transportation. UNM School of 
Law is very grateful for this support and looks forward to future years 
of preparing students for the challenges of DWI and domestic violence 
prosecution in New Mexico.
                                 ______
                                 
    Prepared Statement of Richard Roth, Ph.D., Executive Director, 
                          Santa Fe Impact DWI

Ignition Interlocks in New Mexico
    Ignition Interlocks are the equivalent of having a probation 
officer in the front seat of an offender's vehicle on duty 24 hours a 
day paid for by the offender. The interlock samples the offender's 
breath alcohol content, BAC, and will prevent the vehicle from starting 
if the offender has been drinking. All BAC measurements are recorded 
and reported monthly to a judge or his designee.
    New Mexico has reduced its rates of alcohol-involved crashes, 
injuries, and fatalities by over 40 percent since its first mandatory 
ignition interlock law was passed in 2002. Since 2005, the mandatory 
interlock sanction period has been 1 year for first offenders, 2 years 
for second offenders, 3 years for third offenders, and lifetime with 5-
year judicial review for a fourth or greater conviction.
    As a sanction for drunk driving, ignition interlocks have been 
proven to be effective, cost-effective, and fair. Their effectiveness 
is demonstrated in Figure 1 in which the re-arrest rates of interlocked 
offenders is compared to that of offenders whose licenses are revoked 
and who should not be driving at all. Interlocked DWI offenders have 
only one fourth the re-arrest rate of revoked offenders.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 1 From NHTSA Region 1 Ignition Interlock Institute 
Presentation by Roth, April 12, 2011.

    By preventing drunk driving, interlocks reduce the alcohol involved 
crashes, injuries and fatalities that are so costly to society. For 
every one dollar that offenders spend on interlocks, there is a three 
dollar savings in the economic impact of drunk driving crashes.\1\
---------------------------------------------------------------------------
    \1\ Roth, Richard, Voas, Robert, Marques, Paul (2007) ``Interlocks 
for First Offenders: Effective?,'' Traffic Injury Prevention, 8:4, p 
351.
---------------------------------------------------------------------------
    Almost everyone considers Interlocks a fair sanction for drunk 
driving. But even 85 percent of convicted offenders consider the 
interlock a fair sanction for drunk driving.\2\
---------------------------------------------------------------------------
    \2\ Anonymous surveys of convicted DWI offenders, R. Roth 2005-
2009.
---------------------------------------------------------------------------
    New Mexico leads the Nation in the use of interlocks to reduce 
drunk driving.\3\ Over 50,000 interlocks have been installed since 2002 
and there are 13,500 interlocks currently installed. Figure 2 shows 
that NM has more installed interlocks per capita than any other state.
---------------------------------------------------------------------------
    \3\ ``Estimates of Currently Installed Interlocks in the U.S.'' 
October 2010, http://www.rothinterlock.org/presentations.htm.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 2 R Roth. Estimates of Currently Installed Ignition 
---------------------------------------------------------------------------
Interlocks in the U.S.

     As more and more people become aware of the interlock sanction, 
the general deterrent effect contributes to reducing overall drunk 
driving even of those who have never been arrested. New Mexico seems to 
have reached that tipping point as shown in Figure 3 the increase in 
installed interlocks and the decreases in drunk driving crashes, 
injuries and fatalities are highly correlated.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 3 As the number of installed interlocks increased in NM, the 
number of alcohol-involved crashes, injuries, and fatalities decreased.

    Research shows that interlocked offenders have reduced recidivism 
even after interlocks are removed as shown in Figure 4 where 
interlocked offenders are followed for up to 8 years.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The bottom line is that the New Mexico Interlock Program has made a 
major contribution to outstanding reductions in alcohol-impaired 
driving as shown in the following figures.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 5 shows a 36 percent reduction in the alcohol-involved crash 
rate between 2002 and 2008.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 6 shows a 49 percent reduction in the alcohol-involved 
injury rate between 2002 and 2008.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 7 shows a 49 percent reduction in the alcohol-involved 
fatality rate between 2002 and 2010.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 8 shows that New Mexico shows that the rate of alcohol-
impaired driving fatalities fell 38 percent from one of the worst in 
the Nation in 2004 to the national average in 2008.

    And most importantly, there are 373 New Mexicans alive in 2011 who 
would have been killed by drunk drivers if our 2002 fatality rate had 
continued to the present.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 9 shows the number of New Mexicans who have died in each 
year from 2002 to 2010. It also shows the number of lives saved because 
of the reduction in alcohol-involved fatalities.

    Interlocks have both specific deterrent effects on interlocked 
offenders and a general deterrent effect on the general population. 
There is no question of their effectiveness, their cost-effectiveness, 
and their fairness to offenders. What is still needed in most states 
are laws that get a larger fraction of offenders to install interlocks 
and changes in outdated Federal legislation that limits their use.
          * * * * * * *
    Richard Roth is an Emeritus Professor of Physics who does DWI 
research and advocates for DWI sanctions that are effective, cost-
effective, and fair. He is the Executive Director of Impact DWI, Inc. 
Many of his publications, presentations, and reports are available on 
his website www.RothInterlock.org.
          * * * * * * *
    Santa Fe Impact DWI is a 501C3 non-profit organization dedicated to 
reducing DWI in New Mexico by coordinating Victim Impact Panels and 
supporting anti-DWI efforts in education, prevention, enforcement, 
adjudication, and treatment.
    Visit our website at www.impactdwi.org.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
